<html>
<title> - STRATEGY AND MISSION OF THE DHS SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   STRATEGY AND MISSION OF THE DHS SCIENCE AND TECHNOLOGY DIRECTORATE

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                           Serial No. 113-83

                                and the

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 of the

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                           Serial No. 113-91

                               __________

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

   Printed for the use of the Committee on Homeland Security and the 
              Committee on Science, Space, and Technology
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-900 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Filemon Vela, Texas
Steve Daines, Montana                Vacancy
Scott Perry, Pennsylvania, Vice      Bennie G. Thompson, Mississippi 
    Chair                                (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    Lamar S. Smith, Texas, Chairman
Dana Rohrabacher, California         Eddie Bernice Johnson, Texas
Ralph M. Hall, Texas                 Zoe Lofgren, California
F. James Sensenbrenner, Jr.,         Daniel Lipinski, Illinois
    Wisconsin                        Donna F. Edwards, Maryland
Frank D. Lucas, Oklahoma             Frederica S. Wilson, Florida
Randy Neugebauer, Texas              Suzanne Bonamici, Oregon
Michael T. McCaul, Texas             Eric Swalwell, California
Paul C. Broun, Georgia               Dan Maffei, New York
Steven M. Palazzo, Mississippi       Alan Grayson, Florida
Mo Brooks, Alabama                   Joseph Kennedy III, Massachusetts
Randy Hultgren, Illinois             Scott Peters, California
Larry Bucshon, Indiana               Derek Kilmer, Washington
Steve Stockman, Texas                Ami Bera, California
Bill Posey, Florida                  Elizabeth Esty, Connecticut
Cynthia Lummis, Wyoming              Marc Veasey, Texas
David Schweikert, Arizona            Julia Brownley, California
Thomas Massie, Kentucky              Robin Kelly, Illinois
Kevin Cramer, North Dakota           Katherine Clark, Massachusetts
Jim Bridenstine, Oklahoma
Randy Weber, Texas
Chris Collins, New York
Bill Johnson, Ohio
                                 ------                                

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                    Larry Bucshon, Indiana, Chairman
Steven M. Palazzo, Mississippi       Daniel Lipinski, Illinois
Mo Brooks, Alabama                   Federica Wilson, Florida
Randy Hultgren, Illinois             Zoe Lofgren, California
Steve Stockman, Texas                Scott Peters, California
Cynthia Lummis, Wyoming              Ami Bera, California
David Schweikert, Arizona            Derek Kilmer, Washington
Thomas Massie, Kentucky              Elizabeth Esty, Connecticut
Jim Bridenstine, Oklahoma            Robin Kelly, Illinois
Chris Collins, New York              Eddie Bernice Johnson, Texas
Bill Johnson, Ohio
Lamar S. Smith, Texas






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies, Committee on Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Larry Bucshon, a Representative in Congress From 
  the State of Indiana, and Chairman, Subcommittee on Research 
  and Technology, Committee on Science, Space, and Technology:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies, Committee on Homeland Security:
  Prepared Statement.............................................     4
The Honorable Daniel Lipinski, a Representative in Congress From 
  the State of Illinois, and Ranking Member, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas, and Chairman, Committee on Science, Space, 
  and Technology:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     9
The Honorable Eddie Bernice Johnson, a Representative in Congress 
  From the State of Texas, and Ranking Member, Committee on 
  Science, Space, and Technology:
  Prepared Statement.............................................     6
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey...................................     3

                               Witnesses

Mr. Reginald Brothers, Under Secretary for Science and 
  Technology, Department of Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. David C. Maurer, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                                Appendix

Questions From Chairman Patrick Meehan and Chairman Larry Bucshon 
  for Reginald Brothers..........................................    51
Questions From Chairman Lamar S. Smith for Reginald Brothers.....    56
Question From Ranking Member Daniel Lipinski for Reginald 
  Brothers.......................................................    58
Questions From Honorable Chris Collins for Reginald Brothers.....    58
Questions From Chairman Lamar S. Smith for David C. Maurer.......    59

 
   STRATEGY AND MISSION OF THE DHS SCIENCE AND TECHNOLOGY DIRECTORATE

                              ----------                              


                       Tuesday, September 9, 2014

   U.S. House of Representatives,          
    Committee on Homeland Security,        
       Subcommittee on Cybersecurity,      
         Infrastructure Protection, and    
               Security Technologies, and  
             U.S. House of Representatives,
       Committee on Science, Space, and Technology,
                   Subcommittee on Research and Technology,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies] presiding.
    Present from Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies: Representatives Meehan, 
Rogers, Perry, and Thompson.
    Present from Subcommittee on Research and Technology: 
Representatives Buschon, Hultgren, Collins, Johnson, Lipinski, 
Peters, Esty, and Kelly.
    Also present: Representatives Payne and Smith.
    Mr. Meehan. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies of the 
Committee of Homeland Security and the Subcommittee on Research 
and Technology of the Committee on Science, Space, and 
Technology will come to order.
    The subcommittees are jointly meeting today to examine the 
strategy and mission of the Science and Technology Directorate 
at the Department of Homeland Security. Good morning, and thank 
you for being here this morning.
    I now recognize myself for an opening statement. I would 
like to thank everyone for attending this important joint 
hearing on the strategy and mission of the DHS Science and 
Technology Directorate. I would particularly like to thank 
Ranking Member Payne as well as Chairman Bucshon and Ranking 
Member Lipinski of the Science, Space, and Technology's 
Research and Technology Subcommittee for their joint 
participation. I often think that we do so much better work 
when we can work together on these. Since both committees share 
jurisdiction, it is helpful we are holding this oversight 
hearing while we collaborate on writing an authorization bill.
    I would also like that thank our witnesses: Dr. Reginald 
``Reggie'' Brothers, the new under secretary for S&T; and David 
Maurer from the GAO. I look forward to hearing from both of you 
on the challenges facing the directorate and how we can help 
ensure S&T is able to fulfill its mission.
    The DHS Science and Technology Directorate was established 
by Congress to be the primary research and development arm of 
the Department of Homeland Security. In this role, S&T manages 
science and technology research and provides acquisition 
support for the Department's operational components. It works 
with partners to do basic research and provide technology 
solutions to first responders.
    It is no secret that the Science and Technology Directorate 
has had its challenges since its creation. But despite several 
restructuring and close Congressional oversight, the S&T 
Directorate continues to face difficulties in fulfilling its 
mission. Problems with priority setting and strategic planning 
for the directorate's R&D programs, as well as balancing 
incremental efforts with high-risk, high-reward research remain 
a challenge. In addition, there continues to be challenges with 
working with the operational components in both research and 
acquisition support activities.
    Our committees have been working together to develop 
authorizing language for the S&T Directorate to give it the 
clarity, structure, and tools it needs, while ensuring it 
remains accountable. I look forward to working with everyone 
here as we develop this legislation.
    We appreciate that Dr. Brothers, who was just confirmed--
and congratulations on that--to his post as under secretary in 
April. We don't expect all these problems to be solved 
overnight. But that said, we are interested in hearing your 
ideas on how to get, and to keep, the S&T Directorate on track.
    Dr. Brothers recently briefed our staff and will discuss, 
in his testimony, the establishment of four key visionary goals 
in which the S&T will focus their efforts. While goals are 
important, we are also interested in hearing the strategy and 
implementation plan to make those goals a reality, including 
time lines and metrics to the extent you feel that they can 
be--those measurements can be attached to those goals. S&T has 
a unique position and opportunity to be, as you said in your 
written testimony, the glue between operational elements. I 
look forward to hearing about specific successes that S&T has 
accomplished working with operational components.
    Just as important, we look forward to hearing how S&T 
intends to balance the long-term research agenda with the 
short-term operational technology development and acquisition 
support.
    Again, I would like to thank the witnesses, as well as our 
Science Committee colleagues, for participating in the hearing 
today.
    [The statement of Chairman Meehan follows:]
                  Statement of Chairman Patrick Meehan
                           September 9, 2014
    I would like to thank everyone for attending this important joint 
hearing on the strategy and mission of the DHS Science and Technology 
(S&T) Directorate. I would particularly like to thank Ranking Member 
Clarke as well as Chairman Bucshon and Ranking Member Lipinski of the 
Science and Technology Research Subcommittee for their participation. 
Since both committees share jurisdiction it is helpful that we are 
holding this oversight hearing together while we collaborate on writing 
an authorization bill. I would also like to thank our witnesses, Dr. 
Reginald ``Reggie'' Brothers, the new under secretary for S&T and David 
Maurer from GAO and I look forward to hearing from both of you on the 
challenges facing the directorate and how we can help ensure S&T is 
able to fulfill its mission.
    The DHS Science and Technology Directorate was established by 
Congress to be the primary research and development arm of the 
Department of Homeland Security. In this role, S&T manages science and 
technology research and provides acquisition support for the 
Department's operational components, and works with partners to do 
basic research and provide technology solutions to first responders.
    It is no secret that the Science and Technology Directorate has had 
challenges since its creation. Despite several restructurings and close 
Congressional oversight, the S&T Directorate continues to face 
difficulties in fulfilling its mission. Problems with priority setting 
and strategic planning for the directorate's R&D programs as well as 
balancing incremental efforts with high-risk, high-reward research 
remain a challenge. In addition, there continue to be challenges with 
working with the operational components in both research and 
acquisition support activities.
    Our committees have been working together to develop authorizing 
language for the S&T Directorate to give it the clarity, structure, and 
tools it needs while ensuring it remains accountable. I look forward to 
working with everyone here as we develop that legislation.
    We appreciate that Dr. Brothers was just confirmed to his post as 
Under Secretary in April and we don't expect all of these problems to 
be solved overnight. That said, we are interested in hearing his ideas 
on how to get and keep the S&T Directorate on track. Dr. Brothers 
recently briefed our staff, and will discuss in his testimony, the 
establishment of four key visionary goals on which S&T will focus their 
efforts. And while goals are important, we are also interested in 
hearing the strategy and implementation plan to make those goals a 
reality including time lines and metrics as well.
    S&T has a unique position and opportunity to be, as you said in 
your written testimony, ``the glue between operational elements.'' We 
look forward hearing about specific successes that S&T has accomplished 
working with operational components. And just as important, we look 
forward to hearing how S&T intends to balance the long-term research 
agenda with short-term operational technology development and 
acquisition support.
    Again, I would like to thank the witnesses as well as our Science, 
Space, and Technology Committee colleagues for participating in this 
hearing today. With that, I yield the balance of my time.

    Mr. Meehan. With that, I yield back the balance of my time, 
and I now recognize the Ranking Minority Member, the gentleman 
who is representing the subcommittee today, from New Jersey, 
Mr. Payne, for any opening comments he may have.
    Mr. Payne. Thank you, Chairman Meehan, and to Chairman 
Bucshon, to my Ranking Member, Mr. Thompson. I have a statement 
from the subcommittee Ranking Member, Yvette D. Clarke, who 
apologizes for not being able to be here today. I'll read that 
now.
    Thank you, Chairman Meehan and Chairman Bucshon for 
convening this joint hearing of the Science and Technology 
Directorate. I want to especially welcome Ranking Member 
Lipinski and our colleagues from the Subcommittee on Research 
and Technology.
    Dr. Brothers, it is good to have you back before this 
subcommittee. Mr. Maurer, thank you for agreeing to give us 
your perspective, and we are pleased to have you here today. 
S&T is an essential component of the Department's efforts. I 
know many of us are eager to hear about the new vision and 
priorities at the directorate. The mission of the S&T 
Directorate is to strengthen America's security and resiliency 
by providing innovative science and technology solutions for 
the homeland security enterprise.
    In order to meet the needs of this diverse stakeholder, who 
covers all of DHS missions in areas, S&T strives to rapidly 
develop and deliver knowledge, analysis, and innovative 
solutions that advance the mission of the Department. S&T also 
leverages technical expertise to assist the efforts of the DHS 
components to establish operational requirements and to select 
and acquire needed technologies. The ultimate goal of S&T, as I 
see it, is to strengthen the Homeland Security's first 
responders' capabilities to protect the homeland and respond to 
disaster.
    Along the way, S&T must help foster a culture of innovation 
and learning across DHS that speaks to the challenges with 
scientist and technical rigor. In 2009, spurred by the findings 
of several reports about S&T--especially one performed by the 
National Academy of Public Administration--this subcommittee 
initiated its own year-long comprehensive review of the 
directorate. Our purpose was to identify areas within the 
directorate that could use a fresh set of eyes and additional 
oversight, or modifications, to legislative authorities. As a 
result, we produced a comprehensive bipartisan bill which 
passed the House unanimously in 2010.
    In doing so, we reviewed the Homeland Security Act and the 
Department's use of the authorities that Congress had vested in 
it, and I am hoping that some of these things we learned during 
that process can be used in future authorization efforts. One 
of the things we did learn was that such a large and complex 
portfolio and--the directorate has, it is difficult to craft a 
cohesive strategy. Our analysis suggested that the Department 
had not developed a clear risk-based methodology to determine 
what research projects to fund, how much to fund, and how to 
evaluate a project's effectiveness or usefulness. These 
questions remain today.
    In my opinion, the directorate will never achieve success 
unless research rules and metrics are more fully established. I 
am anxious to hear of any plans that the under secretary may 
have in mind to keep the directorate moving forward during 
these challenging times. Striving to do more with less is 
always the hallmark of an efficiently-run effort of any type. 
But trying to protect our citizens and the Nation, with 
programs that are backed by unfunded and depleted science and 
technology research assets is another matter.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                           September 9, 2014
    Thank you Chairman Meehan and Chairman Bucshon for convening this 
joint hearing on the Science and Technology Directorate, and I want to 
especially welcome Ranking Member Lipinski and our colleagues from the 
Subcommittee on Research and Technology. Dr. Brothers, it is good to 
see you back before this subcommittee, and Mr. Maurer, thank you for 
agreeing to give us your perspective, and we are pleased to have you 
here today.
    S&T is an essential component of the Department's efforts, and I 
know many of us are eager to hear about a new vision and priorities at 
the directorate. The mission of the S&T Directorate is to strengthen 
America's security and resiliency by providing innovative science and 
technology solutions for the Homeland Security Enterprise.
    In order to meet the needs of its diverse stakeholders who cover 
all DHS mission areas, S&T strives to rapidly develop and deliver 
knowledge, analyses, and innovative solutions that advance the mission 
of the Department.
    S&T also leverages technical expertise to assist the efforts of the 
DHS components to establish operational requirements and to select and 
acquire needed technologies. The ultimate goal of S&T, as I see it, is 
to strengthen the Homeland Security First Responders' capabilities to 
protect the homeland and respond to disaster.
    Along the way, S&T must help foster a culture of innovation and 
learning across DHS that speaks to challenges with scientific and 
technical rigor. In 2009, spurred by the findings of several reports 
about S&T, especially one performed by the National Academy of Public 
Administration, this subcommittee initiated its own year-long 
comprehensive review of the directorate.
    Our purpose was to identify areas within the directorate that could 
use a fresh set of eyes and additional oversight or modifications to 
legislative authorities. As a result, we produced a comprehensive, 
bipartisan bill, which passed the House unanimously in 2010.
    In doing so, we reviewed the Homeland Security Act and the 
Department's use of the authorities the Congress has vested in it. I am 
hoping that some of the things we learned during that process can be 
used in future authorization efforts.
    One of the things we did learn was that with such a large and 
complex portfolio, the directorate has found it difficult to craft a 
cohesive strategy. Our analysis suggested that the Department had not 
developed a clear risk-based methodology to determine what research 
projects to fund, how much to fund, and how to evaluate a project's 
effectiveness or usefulness. These questions remain today.
    In my opinion, the directorate will never achieve success unless 
research rules and metrics are more fully established, and I am anxious 
to hear of any plans that the Under Secretary may have in mind to keep 
the directorate moving forward during these challenging times.
    Striving to do more with less is always the hallmark of an 
efficiently-run effort--of any type--but trying to protect our citizens 
and Nation with programs that are backed by underfunded and depleted 
science and technology research assets, is another matter.

    Mr. Meehan. I want to thank the gentleman from New Jersey.
    Now I would like to recognize my co-chair for the hearing 
today, the gentleman from Illinois, or from Indiana, Mr. 
Bucshon, for any statement that he may have.
    Mr. Bucshon. Thank you, Chairman Meehan. I am happy to 
welcome everyone to this joint hearing on the Department of 
Homeland Security Science and Technology Directorate. As we 
work on the potential reauthorization of the S&T Directorate, 
this hearing will provide us with background information needed 
from the under secretary for science and technology, who 
recently took on his post at the Department, and from the 
Government Accountability Office that has produced a number of 
reports focused on the directorate.
    In July, the Research and Technology Subcommittee, which I 
chair, held a hearing looking at the S&T Directorate's work 
related to border security technology. That hearing, as well as 
today's, should offer valuable details to inform our work on 
our subcommittees. Established in 2002 in the Homeland Security 
Act, the Directorate for Science and Technology has primary 
responsibility for bringing new technologies to full readiness 
at DHS. The mission of an S&T directorate is to, ``to 
strengthen America's security and resilience by providing 
knowledge, products, and innovative technology solutions for 
the homeland security enterprise.''
    My district in southwest Indiana is home to Naval Surface 
Warfare Center Crane, whose personnel and facilities provide 
the Department of Defense with state-of-the-art technology. 
Given this, I am particularly interested in learning how 
existing technologies perhaps used for the Department of 
Defense purposes are being, and can be, utilized in different 
ways for securing the homeland. Twelve years ago, the Homeland 
Security Act tasked the S&T Directorate with the coordination 
and integration of research, development, demonstration, and 
testing and evaluation activities at DHS.
    Unfortunately, the S&T Directorate has not yet been able to 
accomplish this task. I look forward to hearing from both of 
our witnesses about how the directorate can move forward to 
carry out this important role. Today's hearing should provide 
us with invaluable insights and oversight of the S&T 
Directorate. I look forward to hearing from both of our 
witnesses.
    Thank you, Chairman Meehan, and I yield back.
    [The statement of Chairman Bucshon follows:]
                  Statement of Chairman Larry Buschon
                           September 9, 2014
    Thank you Chairman Meehan. I am happy to welcome everyone to this 
joint hearing on the Department of Homeland Security's Science and 
Technology Directorate (S&T Directorate).
    As we work on the potential reauthorization of the S&T Directorate, 
this hearing will provide us with background and information needed 
from the Under Secretary for Science and Technology who recently took 
on his post at the Department, and the Government Accountability Office 
that has produced a number of reports focused on the Directorate.
    In July, the Research and Technology Subcommittee held a hearing 
looking at the S&T Directorate's work related to border security 
technology. That hearing, as well as today's, should offer valuable 
details to inform our work.
    Established in 2002 in the Homeland Security Act, the Directorate 
for Science and Technology has primary responsibility for bringing new 
technologies to full readiness at DHS.
    The mission of the S&T Directorate is ``to strengthen America's 
security and resiliency by providing knowledge products and innovative 
technology solutions for the Homeland Security Enterprise.'' My 
district in southwest Indiana is home to Naval Surface Warfare Center 
Crane, whose personnel and facilities provide the Department of Defense 
with state-of-the-art technology.
    Given this, I am particularly interested in learning how existing 
technologies, perhaps used for Department of Defense purposes, are 
being and can be utilized in different ways for securing the Homeland.
    Twelve years ago, the Homeland Security Act tasked the S&T 
Directorate with the coordination and integration of the research, 
development, demonstration, and testing and evaluation activities of 
DHS. Unfortunately, the S&T Directorate has not yet been able to 
accomplish this task. I look forward to hearing from both of our 
witnesses about how the directorate can move forward to carry out this 
important role.
    Today's hearing should provide us with invaluable insights and 
oversight of the S&T directorate. I look forward to hearing from both 
of our witnesses. Thank you Chairman Meehan and I yield back.

    Mr. Meehan. I want to thank the gentleman. I will now 
recognize the gentleman from Illinois. But I recognize, as 
well, that when you mix up Indiana and Illinois during Big 10 
football season you do so at great peril.
    But Mr. Lipinski, for any comments he may have.
    Mr. Lipinski. Thank you, Mr. Chairman. I went to 
Northwestern so Illinois isn't my team. But before I start, I 
wanted to ask unanimous consent to insert in the record an 
opening statement from Ranking Member Eddie Bernice Johnson of 
the Committee on Science, Space, and Technology.
    Mr. Meehan. Without objection, so ordered.
    [The statement of Ranking Member Johnson follows:]
           Statement of Ranking Member Eddie Bernice Johnson
                           September 9, 2014
    Thank you Mr. Chairman. As the Ranking Member of the Science, 
Space, and Technology Committee, I am pleased to see this collaborative 
effort by these two committees as we hear from the Under Secretary for 
Science and Technology at DHS and GAO. Thank you to the witnesses for 
being here. I hope this cross-committee bipartisan collaboration 
continues as we work to reauthorize the S&T Directorate.
    The Department's research activities aim to deliver the latest 
technologies and innovative solutions to the agents in the field. These 
technologies act as a force multiplier to protect our borders, our 
cities, and our communities. The homeland security threat landscape is 
constantly changing and innovative research allows us to stay ahead of 
those who wish to do us harm. This complex challenge requires the 
greatest minds and most talented workforce. Dr. Brothers, I look 
forward to hearing how you are tapping into and improving the DHS 
workforce to ensure the best leaders and decision makers are at the 
table to push the Department's research operations to new levels.
    In addition to a strong workforce, DHS has five National 
laboratories and access to the excellent facilities and strong 
technical support at Department of Energy labs. DHS also has 12 
university-based Centers of Excellence, an advanced research projects 
agency, and a growing industrial base. The tools are all there. Where 
S&T has fallen short is in carrying out the basics of good Government: 
Strategic planning, coordination across the agency, and adequate 
testing and evaluation. These problems must be fixed.
    I look forward to hearing from you, Dr. Brothers, on the changes 
you will be putting in place to ensure DHS R&D investments are well-
managed.
    Again, thank you Mr. Chairman for holding this hearing and I yield 
back the balance of my time.

    Mr. Lipinski. Thank you. I want to thank Chairman Meehan 
and Chairman Bucshon for calling this hearing today. I welcome 
the opportunity to join with my colleagues on the Homeland 
Security Committee to discuss the important work being done at 
the Department of Homeland Security's Science and Technology 
Directorate. I also want to thank our witnesses for being here. 
Under Secretary Brothers, I look forward to hearing about your 
plans and progress so far for the S&T Directorate. Mr. Maurer, 
it is good to see you again. We had a good hearing back in the 
Science, Space, and Technology Committee in July.
    It is no secret that the creation of DHS as a single agency 
constructed from several existing agencies with diverse 
missions generated a number of management challenges. The S&T 
Directorate's task of providing high-quality scientific and 
technical support for all of the agency's missions is 
undoubtedly a daunting one. Having said that, I am disappointed 
that the success of the S&T Directorate continues to be limited 
by a lack of effective strategy and a lack of coordination 
resulting in some costly and, likely, preventable failures. 
This must change.
    Under Secretary Brothers, I am interested to hear from you 
about the policy management changes you are putting in place to 
shift the S&T Directorate toward a more focused and strategic 
operation. I want to make sure everyone understands that, you 
know, you are new to this--relatively new to this position. As 
I said to you before we began, this is a very daunting task 
that you have. But we are all happy to work with you to help 
you succeed in that. As you put together a strategic plan for 
S&T, I hope you will look critically at customer needs, your 
relationship with the operational components, the balance 
between short- and long-term research, and lessons learned from 
past failures.
    Visionary goals and detailed objectives can be helpful, but 
those need to be coupled with effective policies and practices 
to ensure success. The end-users of S&T Directorate research 
are varied and have a wide range of technical and operational 
needs. The end-users span from first responders and private 
industry to Border Patrol Agents and TSA screeners. I would 
like to hear how the directorate seeks to prioritize these end-
users and fit their needs into the broader R&D strategy, as 
indicated by DHS risk analyses.
    Successful technology development also requires researchers 
and end-users to be communicating and collaborating at each 
stage of the R&D process. I think it is fair to say that the 
relationship between S&T and the operational components has not 
always been productive. I look forward to hearing what S&T is 
doing to improve these relationships and how they define their 
role within each phase of the technology development process. 
In addition, operational mission needs often demand tangible 
outcomes and deliverables.
    However, I am very concerned that DHS is not striking the 
right balance between critical basic research and applied 
technology development. Without long-term investment in the 
Department, the Nation will not have the scientific foundation 
for new homeland security technologies in the future.
    Finally, as Science Committee Members heard at our July 
hearing, social science has played an important role in the 
technology development, testing, and evaluation processes. We 
have seen how the most advanced technologies can end as 
failures because the developers do not consider how the 
operators in the field will use the technology.
    I am interesting to hear what methods are in place now to 
ensure that human factors are considered during technology 
development and acquisition. Once again, Dr. Brothers, you have 
quite a task before you. I look forward to working with you 
and, hopefully, providing you with some of the tools you need 
to improve the R&D efforts at DHS. Most importantly keep the 
American homeland safe.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The statement of Ranking Member Lipinski follows:]
              Statement of Ranking Member Daniel Lipinski
                           September 9, 2014
    Thank you to Chairman Meehan and Chairman Bucshon for calling this 
hearing today. I welcome the opportunity to join with my colleagues on 
the Homeland Security Committee to discuss the important work being 
done at the Department of Homeland Security's Science and Technology 
Directorate.
    I also want to thank our witnesses for being here. Under Secretary 
Brothers, I look forward to hearing about your plans and progress so 
far with the S&T Directorate. Mr. Maurer, it is good to see you again.
    It is no secret that the creation of DHS as a single agency 
constructed from several existing agencies with diverse missions 
generated a number of management challenges. The S&T Directorate's task 
of providing high-quality scientific and technical support for all of 
the agency's missions is undoubtedly a daunting one. Having said that, 
I am disappointed that the success of the S&T Directorate continues to 
be limited by the lack of an effective strategy and a lack of 
coordination, resulting in some costly and likely preventable failures. 
This must change.
    Under Secretary Brothers, I am interested to hear from you about 
the policy and management changes you are putting in place to shift the 
S&T Directorate toward a more focused and strategic operation. As you 
put together a strategic plan for S&T, I hope you will look critically 
at customer needs, your relationship with the operational components, 
the balance between short- and long-term research, and lessons learned 
from past failures. Visionary goals and detailed objectives can be 
helpful, but those need to be coupled with effective policies and 
practices to ensure success.
    The end-users of S&T Directorate research are varied and have a 
wide range of technical and operational needs. The end-users span from 
first responders and private industry to Border Patrol Agents and TSA 
Screeners. I would like to hear how the Directorate seeks to prioritize 
these end-users and fit their needs into the broader R&D strategy as 
indicated by DHS risk analyses.
    Successful technology development also requires researchers and 
end-users to be communicating and collaborating at each stage of the 
R&D process. I think it is fair to say that the relationship between 
S&T and the operational components has not always been productive. I 
look forward to hearing what S&T is doing to improve these 
relationships and how they define their role within each phase of the 
technology development process.
    In addition, operational mission needs often demand tangible 
outcomes and deliverables. However, I am very concerned that DHS is not 
striking the right balance between critical basic research and applied 
technology development. Without long-term investments, the Department 
and the Nation will not have the scientific foundation for new homeland 
security technologies in the future.
    Finally, as Science Committee Members heard at our July hearing, 
social sciences play an important role in the technology development, 
testing, and evaluation processes. We have seen how the most advanced 
technologies can end as failures because the developers do not consider 
how the operators in the field will use the technology. I am interested 
to hear what methods are in place now to ensure that human factors are 
considered during technology development and acquisition.
    Once again, Dr. Brothers, you have quite the task before you. I 
look forward to working with you and hopefully providing you with some 
of the tools you need to improve the R&D efforts at DHS, and most 
importantly keep the American homeland safe.
    Thank you Mr. Chairman, I yield back the balance of my time.

    Mr. Meehan. Yes, I thank the gentleman. I know the Chairman 
of the Science, Space, and Technology Committee expects to be 
here and to make an opening statement, which I will recognize 
him when he arrives. But we are also very grateful to have at 
the hearing today the Ranking Member of the full Committee on 
Homeland Security, the gentleman from Mississippi.
    I invite the gentleman if he would like to make any 
comments before we begin.
    Mr. Thompson. Thank you, Mr. Chairman. Promise you I will 
be brief.
    As I said, thank you and thank Chairman Bucshon for 
convening this joint hearing on the Science and Technology 
Directorate. I want to especially welcome Ranking Member 
Lipinski and our colleagues from the Subcommittee on Research 
and Technology. I join you in welcoming both Under Secretary 
Brothers to the committee, and Mr. Maurer on the Government 
Accountability Office, and look forward to today's testimony.
    Research and development on technologies is a key component 
of DHS's efforts to detect, prevent, and mitigate terrorist 
threats. Given the size of DHS, its role in the Federal 
Government, and the dynamics of the current threat picture R&D 
should be a priority. DHS should have a cohesive policy that 
defines responsibility for coordinating R&D and mechanisms to 
attract all DHS R&D projects. Unfortunately, this is not the 
case. Multiple entities across DHS conduct various types of R&D 
in pursuit of their respective missions.
    According to GAO, DHS does not have a Department-wide 
policy defining R&D, or guidance directing components how to 
report R&D activities and investments. Consequently, it leaves 
Congress to question where the Science and Technology 
Directorate fits in this picture. Does S&T have the ability to 
maintain oversight of its investment in R&D across the 
Department? Where are S&T's limitations on its ability to 
oversee components of R&D efforts and align them with agency-
wide goals and priorities? This fragmented approach, to allow 
R&D within S&T to be an easy target for all sets.
    As my colleagues across the aisle continue to support 
extreme budget cuts that affect the funding levels for the 
Department, programs that are not clear in their mission do not 
have metrics to illustrate their value heighten their 
vulnerability. Congress recognizes that threat picture is 
evolving. Accordingly, it should make sense to continue to 
invest in innovation. However, these investments must be 
justified. It has not been made clear to the committee if S&T 
has a system to monitor research milestones and collect 
feedback from customers and end-users on the effectiveness of 
the services delivered by the directorate.
    There have to be metrics to justify how S&T develops 
security solutions. Mr. Under Secretary, you and I both know 
the importance of innovation, and we have actually talked about 
it. The next technology that could advance the Department's 
goal could be in the hands of a small business owner. 
Unfortunately, there have been instances where small companies 
complain about their difficulty in working with S&T. I hope to 
hear the strategy the director has to improve its relationship 
with small and/or minority-owned businesses.
    Mr. Chairman, I hope the committee will take these matters 
seriously as we learn how the directorate will carry out its 
strategic plans, management directives, and operational 
programs going forward.
    Thank you, and I yield back.
    Mr. Meehan. I thank the gentleman. We are also similarly 
grateful for having the presence of the Ranking Member, another 
Ranking Member, and the Chairman of the full Science, Space, 
and Technology Committee, the gentleman from Texas, Mr. Smith. 
Thank you for being here.
    I recognize you for any opening comment you may have.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman--both Chairs who are here today--for having this joint 
hearing. Today, we have an opportunity to continue our 
discussion about the work of the Department of Homeland 
Security's Science and Technology Directorate. In July, the 
Science Committee's Research and Technology and Oversight 
Subcommittees held a hearing on technologies that would help 
secure the border. At that hearing, witnesses discussed the 
need for a unified strategy and consistent metrics for 
developing border technologies.
    As with other Department components, the Science and 
Technology Directorate has yet to provide the necessary 
strategy and technology to control our Nation's borders. A 
Nation that has lost control of its border has lost control of 
its future. The Government Accountability Office found the 
Department of Homeland Security's research and development 
efforts to be, ``fragmented and overlapping.'' In previous 
years, the GAO found hundreds of millions of dollars being 
spent each year on duplicative R&D projects by other offices 
within the Department.
    The Science and Technology Directorate will spend $1.2 
billion this year on numerous projects. The Science and 
Technology Directorate is uniquely positioned to interact with 
all of DHS components. It not only is in a position to help 
secure our physical border, but also can better protect our 
virtual borders related to network and information technology.
    I am particularly interested in learning about the 
directorate's work on cybersecurity issues. Dr. Brothers and 
his team have made cybersecurity a centerpiece of their 
recently-released visionary goals.
    On a daily basis, our Nation's economy and security are 
threatened by cyber criminals and hackers. Unfriendly foreign 
governments launch regular cyber attacks to undermine our 
National security and steal military and technological secrets. 
Cyber attacks against U.S. Government and private-sector 
networks continue to grow at an alarming rate. But the full 
scope of the threat we face has yet to be realized. 
Unfortunately, the Senate continues to sit on numerous bills 
passed by the House that would make our cyber infrastructure 
more secure.
    Many of these bills were initiated by the Science, Space, 
and Technology Committee and the Homeland Security Committee. 
While the Senate remains immobile, we will continue our work on 
solutions here in the House. Unsecure physical and virtual 
borders threaten our National and economic security. Technology 
can help us better secure our borders and determine our future. 
I look forward to hearing from our witnesses today and want, 
again, to thank our Chairmen for conducting this hearing.
    I will yield back.
    [The statement of Chairman Smith follows:]
                  Statement of Chairman Lamar S. Smith
                           September 9, 2014
    Thank you, Chairman Meehan and Chairman Bucshon for holding this 
joint hearing. Today we have an opportunity to continue our discussion 
about the work of the Department of Homeland Security's Science and 
Technology Directorate.
    In July, the Science, Space, and Technology Committee's Research 
and Technology and Oversight Subcommittees held a hearing on 
technologies that would help to secure the border.
    At that hearing, witnesses discussed the need for a unified 
strategy and consistent metrics for developing border technologies.
    As with other Department components, the Science and Technology 
Directorate has yet to provide the necessary strategy and technology to 
control our Nation's borders. A Nation that has lost control of its 
border has lost control of its future.
    The Government Accountability Office (GAO) found the Department of 
Homeland Security's (DHS's) research and development (R&D) efforts to 
be ``fragmented and overlapping.''
    In previous years, the GAO found hundreds of millions of dollars 
being spent each year on duplicative R&D projects by other offices 
within the Department. The Science and Technology Directorate will 
spend $1.2 billion this year on numerous projects.
    The Science and Technology Directorate is uniquely positioned to 
interact with all of DHS's components. It not only is in a position to 
help secure our physical border, but also can better protect our 
virtual borders related to network and information technology.
    I am particularly interested in learning about the Directorate's 
work on cybersecurity issues. Dr. Brothers and his team have made 
cybersecurity a centerpiece of their recently-released ``visionary 
goals.''
    On a daily basis, our Nation's economy and security are threatened 
by cyber criminals and hackers. Unfriendly foreign goverments launch 
regular cyber attacks to undermine our National security and steal 
military and technological secrets.
    Cyber attacks against U.S. Government and private-sector networks 
continue to grow at an alarming rate. But the full scope of the threat 
we face has yet to be realized.
    Unfortunately, the Senate continues to sit on numerous bills passed 
by the House that would make our cyber infrastructure more secure. Many 
of these bills were initiated by the Science, Space, and Technology 
Committee and the Homeland Security Committee.
    While the Senate remains immobile, we will continue to work on 
solutions here in the House. Unsecure physical and virtual borders 
threaten our National and economic security. Technology can help us 
better secure our borders and determine our future.
    I look forward to hearing from the witnesses today and will 
continue to work on legislation to set priorities for the Science and 
Technology Directorate.

    Mr. Meehan. Let me thank the Chairman. Other Members of the 
committee: A reminder that opening statements may be submitted 
for the record.
    Mr. Meehan. We are pleased to have a distinguished panel of 
witnesses before us today on this very important topic. Let me 
begin by introducing Dr. Reginald Brothers. He is the under 
secretary for science and technology at the Department of 
Homeland Security. As under secretary, Dr. Brothers is the 
science advisor to the Secretary and is responsible for 
oversight and management of Science and Technology Directorate, 
the Department's primary research and development arm.
    Dr. Brothers is a science and technology leader, an expert 
with more than 20 years of private- and public-sector 
experience. Prior to joining DHS, Dr. Brothers served as the 
deputy assistant secretary of defense for research. He was a 
technical fellow, and director for mission applications at BAE 
Systems, as well as a program manager for the Defense Advanced 
Research Projects Agency. Welcome, Dr. Brothers.
    We are joined also by Mr. David Maurer. He is the director 
in the United States Government Accountability Office's 
Homeland Security and Justice team, where he leads GAO's work 
reviewing DHS and DOJ management issues. As a former member of 
the Department of Justice, I remember that oversight. I thank 
you for your work. His past work includes reports and 
testimonies on DHS research and development, DOJ grant 
programs, the Federal prison system, Federal judgeships, DHS 
morale, and DHS's overseas presence.
    The witnesses' full written statements will appear in the 
record, and I thank you for your extensive written statements 
that give us a full spectrum on the issues before you. But in 
the time you have, I hope that you will focus on your 
priorities, Dr. Brothers.
    I look forward to recognizing you for your testimony.

STATEMENT OF REGINALD BROTHERS, UNDER SECRETARY FOR SCIENCE AND 
          TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Under Secretary Brothers. Thank you, and good morning. 
Chairman Meehan, Chairman Bucshon, Ranking Member Payne, 
Ranking Member Lipinski, Ranking Member Thompson, Chairman 
Smith, and distinguished Members of the subcommittees, I want 
to thank you for this opportunity to discuss the mission and 
strategy of the Department of Homeland Security Science and 
Technology Directorate. I would also like to thank the Members 
of the subcommittees for their long-standing interest in, and 
support of, science technology, as evidenced recently by 
legislation such as H.R. 2952 and 33696.
    With this reauthorization, the committee has an opportunity 
to help launch S&T as a 21st Century research and development 
organization who will serve as a model for Federal R&D; one 
that is hyper-connected, exploring the convergence of 
scientific and technical disciplines, capable of meeting 
increasing demand for return on taxpayer dollars, and tailored 
to the new digital age. I would like to open with two 
observations from my 4 months as under secretary.
    First, it is apparent that technology and R&D are an 
essential bridge to the future of homeland security. S&T will 
be central to helping the Department make that future a 
reality. Given current and projected threat environments, 
technology-based solutions will be increasingly relied upon as 
force multipliers to give operators and first responders the 
operational advantage. Second, S&T is the right team for the 
job. It is a dedicated, passionate workforce and solid 
stakeholder base. Walking the halls and speaking to our 
partners, I am invigorated by the wide-spread enthusiasm for 
our mission. They are hungry to contribute, and we have the 
technical breadth and depth to work with operators and end-
users across the full extent of the Department's missions.
    Given these two observations, I am optimistic for S&T's 
future. The objective is to help actualize S&T's potential and 
make it a full-fledged enabler, innovator, and trusted 
performer across the Department. To this end, I came to S&T 
with five priorities: The creation and execution of visionary 
goals; an actionable strategy; an empowered workforce; force-
multiplying solutions; and an energized homeland security 
industrial base. I am proud to say that even after only 4 
months we are well on our way.
    Upon my arrival at S&T, I saw visionary goals that would 
capitalize on creativity, improve transparency and morale, and 
serve as north stars to drive innovation within S&T and our 
broader community. R&D requires imagination. We must tap into 
inventiveness across the entire S&T ecosystem of our 
laboratories, industry, and academia at home and abroad. I 
called on all S&T internal personnel and DHS components, 
stakeholders, end-users, and industry partners to participate 
in the process and provide their insights.
    The visionary goals process has started a National 
dialogue, one that we plan to continue, that has included 1,500 
people participating on-line from industry, academia, and 
Federal, State, and local entities. But the goals as an 
ambitious end-state, our next step is the development of a 
strategic plan for S&T, with a 5-year time horizon. This 
nearer-term road map will lay out how our organization will 
achieve our visionary end-goals and determine concrete metrics 
for success. Upon completion of the S&T strategic plan later 
this year, I look forward to sharing it with this committee, 
the rest of Congress, and our stakeholders in industry and 
academia.
    Part of positioning S&T more strategically was shifting our 
approach to R&D and including more aggressive, higher-potential 
impact programs. A balanced R&D portfolio makes appropriate 
trade-offs between technical feasibility and operational 
impact, weighs threat probability, and appropriately 
distributes investments across performance types and project 
time lines. In recent years, S&T has not had this freedom or 
flexibility. But if we focus entirely on incrementally 
improving existing technology and systems we won't provide the 
next generation the leap-ahead solutions our customers need.
    To achieve our potential, S&T and our stakeholders need to 
weigh these trade-offs and balance delivery of both near-term 
and riskier, longer-term, game-changing capabilities to our 
end-users. All the strategic planning and portfolio development 
that we will describe today depends on identification of 
capability gaps. We will continue refining our process for 
generating these gaps based on the combination of conceptual 
development, hands-on experimentation, analysis of future 
threats and embedding directly with operators. Much of this is 
already done informally. Some of it, like the embed program, 
will be new.
    To function in this new digital age and to generate 
capability gaps and usable solutions to these gaps will depend 
on program managers who can break down firewalls between R&D 
and operations and become fluent in the language of operators. 
S&T fills critical roles as the R&D engine of the homeland 
security enterprise. A reauthorization is an opportunity to 
shape the R&D organization for the 21st Century and to give S&T 
the flexibility to empower our workforce, engage more 
effectively with industry and other non-Government 
stakeholders, and bring more and better solutions to our DHS 
and first-responder customers.
    Thank you for inviting me today to discuss S&T and share my 
vision for the directorate. I am thrilled to be part of this 
organization, and know that with your support in Congress we 
will continue making great strides in finding new and better 
ways to support homeland security operations.
    I look forward to your questions.
    [The prepared statement of Secretary Brothers follows:]
                Prepared Statement of Reginald Brothers
                           September 9, 2014
    Good morning Chairman Meehan, Chairman Bucshon, Ranking Member 
Clark, Ranking Member Lipinski, and distinguished Members of the 
subcommittees. Thank you for the opportunity to testify before you 
today on re-authorization of the Department of Homeland Security's 
(DHS) Science and Technology Directorate (S&T). In this testimony, I 
will discuss how S&T, one of a handful of components in the Department 
created from whole cloth under the original Homeland Security Act of 
2002, has grown in the last 11 years into a trusted partner for DHS 
operators and State, local, Tribal, and territorial first responders. 
With S&T's reauthorization, the committee has an opportunity to help 
launch a 21st Century research and development (R&D) organization that 
will serve as a model for Federal R&D--hyper-connected, exploiting the 
convergence of scientific and technical disciplines, capable of meeting 
increasing demand for return on taxpayer dollars, and tailored to the 
new ``digital age.''\1\
---------------------------------------------------------------------------
    \1\ A term borrowed from Eric Schmidt and Jared Cohen's The New 
Digital Age, which illustrates potential opportunities and challenges 
in the emerging technological era that we will inhabit.
---------------------------------------------------------------------------
    To frame the conversation about S&T, I have two observations from 
my time so far as under secretary. First, I believe given the current 
and projected threat environments, technology-based solutions (materiel 
and human-centric) will increasingly be an essential force multiplier 
to providing operators and first responders the upper hand in their 
respective operational spaces. Technology and R&D are the bridge to the 
future of homeland security. For example, without harnessing advances 
in science and technology, we simply cannot, with current resources, 
screen and secure continuously rising flows of passengers and cargo and 
counter sophisticated, motivated adversaries at land, air, and sea 
Ports of Entry. The most effective and efficient changes come with 
smart application of technical and analytical expertise. Though S&T's 
value and capabilities are acknowledged by many throughout the 
Department, we continue to seek new partners and help address the 
growing need for technology in the Homeland Security Enterprise.
    The second observation is that S&T has a passionate and dedicated 
workforce. Walking the halls, I am invigorated by the wide-spread 
enthusiasm for our mission. Our workforce is hungry to contribute, and 
we have the technical breadth and depth to work with operators and end-
users across the breadth of the Department's missions.
    I believe that given S&T's workforce and the rising urgency for 
technology as a force multiplier, there is yet-to-be-realized potential 
for S&T to support the Department and the Nation. In the coming years, 
my objective is to help S&T actualize that potential and become a full-
fledged enabler and trusted performer across the Department. This 
pursuit, and the ability for S&T to provide the bridge between present 
and future homeland security capabilities, rest significantly on 
whether we can transform the directorate into a 21st Century Federal 
R&D organization. For that, we need help from Congress.
    As under secretary, my thinking is influenced by lessons learned in 
my time at the Department of Defense (DoD), in industry, and at 
Federally-funded laboratories. Many corporate labs today are under 
increased pressure to prove a direct impact to profits. Some 
laboratories are seen by business unit leaders as imposing an 
unjustified tax, and many surviving laboratories ensure that their 
researchers have at minimum a baseline understanding of the business 
context of their work. One way that these laboratories are enabling 
this understanding is by cycling researchers between business units and 
work in the lab. This is a straightforward, deceptively simple-sounding 
concept, but it can make the difference between a lab disconnected from 
its customers and one ultimately providing a strong return on 
investment and expanding business through attunement to operational 
reality and generation of usable, imaginative solutions. This is 
precisely the model I intend to implement at S&T with DHS's operational 
components.
    After my confirmation, I came to S&T with five priorities to 
execute--visionary goals, actionable strategy, an empowered workforce, 
force multiplying solutions, and an energized Homeland Security 
Industrial Base--to address how we plan as a directorate and to ensure 
that we fully leverage all available resources. As I see it, there are 
opportunities to further refine and improve how we work and what we 
focus on as an organization. Those priorities split into two basic 
categories: First, how we plan and prioritize at S&T and, second, how 
to bring all available resources to bear in execution of our programs.
    It is important to mention one item to provide additional strategic 
context before covering specifics. To address the range of challenges 
the Nation faces most collaboratively and effectively within the 
Department, we have recently undertaken an initiative entitled 
``Strengthening Departmental Unity of Effort.'' In his April 22, 2014, 
memorandum, Secretary Johnson directed a series of actions to enhance 
the cohesiveness of the Department, while preserving the 
professionalism, skill, and dedication of the people within, and the 
rich history of, the DHS components.
    There are two elements in this initiative: New senior leader forums 
led by the Secretary and the Deputy, and Department-wide strategy, 
requirements, and budget development and acquisition processes that are 
tied to strategic guidance and informed by joint operational plans and 
joint operations. These are building and maturing DHS into an 
organization that is greater than the sum of its parts--one that 
operates much more collaboratively, leverages shared strengths, 
realizes shared efficiencies, and allows us to further improve our 
important role as an effective domestic and international partner. DHS 
S&T participates fully in the range of Unity of Effort initiative 
activities directed by the Secretary, but just as significantly, 
functions as a directorate with the same unifying principles.
                a strategic focus for homeland security
    Effective planning is how we as an organization will translate the 
basis for our work (e.g., Component priorities, the Secretary's 
initiatives, Congressional mandates, White House policy) into 
functional programs that ultimately deliver novel or improved 
capability. This includes a strategic vision spanning the near term, 
including specific courses of action, through the long term and far 
horizon, including ambitious goals.
Four Visionary Goals
    As a first step, one of my priorities coming on-board was 
establishing visionary goals that would serve as 30-year horizon points 
to build toward. When Dr. George Heilmeier, one of the great technology 
leaders of our time, was director of the Defense Advanced Research 
Projects Agency, the organization and its stakeholders were invigorated 
by his articulation of visionary goals, what he called his ``silver 
bullets.'' Make the oceans transparent. Create an invisible aircraft. 
Heilmeier's visionary goals strove for previously-unachieved 
capabilities and lower-cost equivalents to existing capabilities. They 
helped orient the organization and inspired stakeholders, including 
operators, end-users, and performers in industry and academia.
    R&D requires creativity and imagination, and we must tap into that 
enthusiasm to spur big thinking. At S&T, I tasked a working group with 
representatives from throughout the organization to draft vision 
statements for consumption and feedback from the rest of the 
directorate and our end-user stakeholders. Building off of existing 
policy and doctrine (e.g., the Quadrennial Homeland Security Review, 
Secretary Johnson's priorities, existing Homeland Security Presidential 
Directives), the group generated the four following draft goals:
  <bullet> Screening at Speed: Matching the Pace of Life.--Noninvasive 
        screening at speed will provide for comprehensive threat 
        protection while adapting security to the pace of life rather 
        than life to security. Whether screening people, baggage, or 
        cargo, unobtrusive technologies and improved processes will 
        enable the seamless detection of threats while respecting 
        privacy, with minimal impact to the speed of travel and the 
        pace of commerce.
  <bullet> A Trusted Cyber Future: Protecting Privacy, Commerce, and 
        Community.--In a future of increasing cyber connections, users 
        will trust that infrastructure is resilient, information is 
        protected, illegal use is deterred, and privacy is not 
        compromised. Frictionless security will operate seamlessly in 
        the background, based on self-detecting, self-protecting, and 
        self-healing cyber critical infrastructure--all without 
        disruption.
  <bullet> Enable the Decision Maker: Providing Actionable Information 
        Ahead of Incident Speed.--The decision maker has improved 
        situational awareness and is better able to understand risks, 
        weigh options, and take action--literally experience the 
        information. The essential element to making informed decisions 
        is access to timely, accurate, context-based information. 
        Supported by new decision support, modeling, and simulation 
        systems, critical decisions can be made based on relevant 
        information, transforming disparate data into proactive wisdom, 
        and ultimately improving operational effectiveness.
  <bullet> Responder of the Future: Protected, Connected, and Fully 
        Aware.--The responder of the future is threat-adaptive, able to 
        respond to all dangers safely and effectively. Armed with 
        comprehensive physical protection; interoperable, networked 
        tools; technology-enhanced threat detection and mitigation 
        capabilities; and timely, actionable information, the responder 
        of the future will be able to serve more safely and effectively 
        as an integral part of the Nation's resiliency.
    Following the development of the initial draft set of visionary 
goals by the working group, we opened them to Directorate-wide 
discussion and development. Based on that feedback, changes were made 
before a second wave of input from a wider group including the 
Department and external stakeholders outside DHS.
    One important note is that these are our visionary goals, but they 
certainly do not capture our R&D portfolio in its entirety. The 
homeland security mission space is broad, and many critical efforts are 
not or are only indirectly included in these goals. That a particular 
current effort is not captured in a 30-year vision does not necessarily 
speak to the value of a potential project or place within S&T's 
portfolio of investments. The visionary goals are devices to capitalize 
on creativity and serve as North Stars to drive innovation within S&T 
and our broader community.
An Actionable Strategy
    With the visionary goals as an ambitious end-state, the next step 
is a narrower, 5- to 10-year strategic plan for S&T. This will be a 
nearer-term roadmap for how our organization seeks to achieve our 
visionary end goals. Development of a strategy is a platform to think 
through and communicate our plan internally and, as a result, make the 
most of our investments. Externally, a good strategy also provides 
critical signposts to industry, Congress, and other stakeholders for 
where our priorities lie and the path we seek to reach for long-time 
horizon deliverables. This is a standard tool in industry and 
elsewhere. I look forward to using the same approach at S&T to make us 
more accessible and to be the foundation for how we interface within 
the Department, as an interagency partner, and with industry and our 
other non-Federal partners.
    Drawing on my experience in industry, a strategic plan must be 
actionable and, in order to be useful, cannot simply be a reiteration 
of our existing work and tally of our investments over the last 5 years 
projected into the future. We need to lay out S&T's next 5 to 10 years 
and determine concrete metrics for success. In order to keep the 
strategy current and account for unanticipated changes or emergent 
priorities, the strategy will also be revisited as part of a periodic 
process. Upon completion of the S&T Strategic Plan later this year, I 
look forward to sharing it with this committee, the rest of Congress, 
and our stakeholders in industry and academia at home and abroad.
Delivering Force-Multiplying Solutions
    In order to position the directorate more strategically, we are 
updating our approach to R&D programs. A new approach will allow a more 
focused, strategic relationship with our partners and will address the 
need for a jointly-calibrated investment risk profile. At times, there 
will rightly be pressure to fill immediate needs or invest in 
incremental improvements, but a healthy portfolio must still allow for 
a portion of projects to carry more technical risk and offer 
proportionally greater potential returns. My vision for a balanced R&D 
portfolio is one that makes appropriate trade-offs between technical 
feasibility and operational impact of projects, weighs potential 
event's probability and impact, and that distributes appropriately 
across types of performers (including non-traditional) and project time 
lines (less than 1 year vs. 5 years).
    As such, I plan for a portfolio that spans quick success projects 
integrating off-the-shelf technologies to potentially disruptive 
technologies that, out of necessity, will be high-risk. S&T and our 
stakeholders have to embrace the risk-capability trade-offs if we are 
to achieve our potential to deliver both near-term and game-changing 
capabilities to our end-users. There will also be three categories of 
programs, outlined below, that will ultimately reduce S&T's total 
number of programs but will increase overall impact, strategic focus, 
and sustainability of the R&D portfolio.
    The first category will be our Apex programs. Since S&T's first 
Apex began with the Secret Service in 2010, Apex programs have been 
some of our most successful and have generated a full range of lessons 
learned including on front-end assessment and capability baselining, 
working jointly with DHS operational partners, and joint program 
execution. Much of the original Apex structure will remain--these will 
still be cross-cutting, multi-disciplinary efforts intended to solve 
problems of strategic operational importance--but the projects are 
being scaled to apply to a wider portion of the portfolio and will 
operate on longer 5-year time lines. The new Apexes will include some 
current projects rolled up with expanded or new ones. With high-profile 
programs, concrete deliverables, precise milestones and time lines, and 
significant increases in dollar and workforce investment, we believe 
that the new, scaled Apex efforts will bring substantial gains for our 
operational partners involved with screening, cyber security, flood 
resilience, biodetection, and emergency response.
    The second category of programs will be what we currently refer to 
as our Technology Engine programs. These will focus on technology 
foraging and the development of specific core capabilities and systems 
that cut across, and benefit, numerous programs and projects across 
S&T's portfolio. We see these bringing a push-pull dynamic to the 
directorate. They will be pulled as service providers to Apexes and 
other efforts (e.g., numerous programs have data analytic or network 
security needs), but they will also push for integration of universal 
needs and capabilities like interoperability into projects throughout 
S&T. These technology areas, including data analytics or modeling and 
simulation as examples, will provide a critical mass of knowledge and 
expertise to ensure efficiency and proper leverage of previous, 
current, and future investments.
    The final category includes many focused programs not captured 
under the umbrella of Apexes or Technology Engines but which are still 
critical for meeting the needs of DHS components and our Homeland 
Security Enterprise partners. Example programs would include our 
development of bioassays, which are a foundational element of the 
Nation's biodefense and ability to screen and monitor for pathogens and 
potential bio-attacks. This would also include investments in research 
infrastructure and unique testbeds such as our cyber experimental 
research testbed, which allows cybersecurity researchers to test and 
refine their tools and technologies in large, internet-scale 
conditions.
S&T's Process for Identifying Capability Gaps
    There are two elements of S&T's work that are complementary but 
distinct. The first, requirements, is for acquisition programs and 
deals with physical characteristics and operational necessities (e.g., 
weight, dimension, ruggedness, look and feel). S&T's contributions in 
this area include participation in the Department's joint capabilities 
and requirements process. Operational capability gaps, which are the 
second element, address missions, or subsets of missions that cannot be 
met currently or efficiencies which significantly enhance performance; 
these are based on customer and end-user input. These operational 
capability gaps serve as S&T's primary driver for what we focus on in 
R&D programs.
    Regarding requirements, as you know, the Secretary established a 
Department-wide Joint Requirements Council (JRC) in June as part of his 
Unity of Effort Initiative. The JRC identifies common capability needs 
and challenges across DHS components, and will work as an essential 
input into S&T's own R&D process. In addition to JRC membership, S&T 
currently provides the JRC's primary analytic resources. As such, S&T 
is helping develop and refine JRC analysis, methodology, and process in 
addition to partnering with topic-specific teams to conduct 
capabilities-based assessments. Working under the direction of the JRC 
Chair and with the other JRC stakeholders, we will establish a lasting 
and functional framework for the Department's requirements process.
    The JRC and corresponding DHS joint requirements process often 
highlight capability gaps and can generate valuable input for S&T's 
programs. However, acquisition-related input like physical requirements 
is not the primary basis for R&D programs. For a successful R&D 
organization, any programs, strategy, or visionary goals ultimately 
must grow from and be tied to customers' and end-users' capability 
gaps. A healthy process for identifying capability gaps is an R&D 
organization's engine for understanding what our stakeholders need to 
do their jobs, for knowing where and what services to provide (e.g., 
later-stage acquisition support, engineering services, subject-matter 
expertise), and for validating the effectiveness and the value of the 
investments that S&T is making.
    Moving forward, S&T will formalize and integrate its framework for 
communicating, documenting, addressing, and reviewing capability gaps 
and R&D requirements. These generally grow from two complementary 
categories. The first is conceptual development through embedding 
directly with operators, analysis of future threats, or other 
interaction with operators. The second is through hands-on 
experimentation, also influenced by embedding with operators as well as 
through types of events like those in the Joint Interagency Field 
Exploration program.\2\ Those R&D requirements will then be the basis 
for S&T's technology roadmaps and new start programs.
---------------------------------------------------------------------------
    \2\ Sponsored by S&T and the Department of Defense and conducted in 
conjunction with the Naval Postgraduate School, Joint Interagency Field 
Exploration events bring together operational end-users with technology 
companies to explore the potential of new capabilities to address 
challenges faced by Federal agencies. The environment facilitates a 
collaborative working relationship between Government, academia, 
industry, and non-Governmental organizations to promote the 
identification and assessment of emerging and maturing technologies 
with the primary goal of accelerating the delivery of enhanced 
capabilities to the end-user.
---------------------------------------------------------------------------
    There are several driving principles as S&T locks in its formal 
process for identifying capability gaps: Top-down prioritization by 
leadership; bottom-up engagement with operational staff and end-users 
for challenge statements, proposals, and validation; documents 
capturing current efforts, challenges, and strategies; and periodic 
engagement and review at both the executive and working levels of our 
organizations. Though this process will feature many of the same 
elements across our many partner organizations, it will be tailored to 
each customer in order to ensure functional governance, appropriate 
resource commitment, and mutual management of expectations.
A 21st Century R&D Workforce
    Going back to the lessons learned from corporate labs that have 
maintained their value to organizations, I look forward to 
implementation of a much more robust process for S&T's workforce to 
embed with operators and to allow operational staff to detail to S&T 
and provide direct input to our R&D projects. To function in the new 
digital age, we need scientists who break down firewalls between R&D 
and operations and who become fluent in the language of operators and 
end-users. These ``multi-lingual'' program managers that can slide 
between operational and technical environments have the best track 
records for successful projects and transition to use.
    To achieve this, I would like more opportunities for staff to gain 
first-hand understanding of DHS operations through a formal program to 
embed technical subject-matter expertise experts in the field with 
operators. We will have different durations for different purposes and 
outcomes, perhaps a 2-week speed embed in some cases and in others a 
more comprehensive 6-month or 1-year stint. There are considerable 
obstacles to overcome in order to successfully launch such a program--
e.g., ensuring staff embed in the right places and see real operations, 
that staff are in a position that does not disrupt law enforcement or 
other sensitive operations--but the benefit of deeper connection to 
customers and a reinforced R&D requirements process speak for 
themselves.
    I also believe that achieving this adaptable, ``multi-lingual'' 
workforce requires a more agile and modern hiring authority that is 
suited to an R&D organization. Part of being responsive to end-user R&D 
requirements is agility and adaptability in our workforce. This implies 
that our program managers are able to work across the three categories 
of programs detailed above and have skill sets that are not limited to 
a specific line of business or type of project. That also means being 
able to boost our talented career workforce with more strategic use of 
our existing hiring authorities in the Homeland Security Act to fill 
urgent needs and inject outside perspective into our programs. With a 
fluid workforce strengthened through term-limited outside hires, our 
external S&T stakeholders are more effectively connected to the 
organization, we can foster technical engagement (including with STEM 
students) on homeland security challenges, and our organization is 
better-positioned to support the Department and first responders.
                   leveraging all available resources
    In addition to more effective planning, we are also working to 
ensure that S&T takes advantage of the full spectrum of resources 
across what I refer to as the S&T ecosystem, which is the broad network 
of technical expertise inside and outside of Government that can be 
brought to bear for virtually any issue operators face. This S&T 
ecosystem includes Department of Energy and DoD labs that are National 
assets and global leaders in many research areas; our Nation's broad 
base of universities, many of which are DHS Centers of Excellence; and 
small businesses, the heart of our Nation's innovation, that we engage 
through specialized vehicles like our Small Business Innovation 
Research (SBIR) awards. Any potential R&D performer inside and outside 
Government across industry, academia, Government-funded and private 
laboratories, and in the United States or abroad is a part of the S&T 
Ecosystem.
    The Federal Government no longer provides the same share of funding 
for research and development as it did in the Cold War era, and we can 
no longer assume we have access to the best minds if we work 
exclusively through who and what we already know.\3\ Though it is easy 
to stovepipe and use known performers, a 21st Century R&D organization 
must tap innovation engines in the venture capital world, Silicon 
Valley, or universities to name a few. We face a vast homeland security 
threat space and the entire Homeland Security Enterprise benefits from 
a wider base of potential performers engaged in homeland security R&D. 
The more vehicles to reach those potential performers (including DHS 
Centers of Excellence and SBIR above, cooperative research and 
development agreements, newly-delegated prize authority, and so on), 
the more effectively and efficiently we can develop essential security 
solutions.
---------------------------------------------------------------------------
    \3\ The Federal Government was the main provider of the Nation's 
R&D accounting for 53.9 percent in 1953 and 66.8 percent in 1964. In 
2011, Federal spending accounted for 29.6% of the Nation's R&D 
spending. Source: National Science Foundation (http://www.nsf.gov/
statistics/seind14/content/chapter-4/at04-06.pdf).
---------------------------------------------------------------------------
An Empowered S&T Workforce
    Tapping the full potential of the S&T ecosystem will require 
putting effort into improving coordination and collaboration within DHS 
S&T. Across offices at S&T, we already cover most of the S&T Ecosystem 
on a piece-by-piece basis with several offices actively engaged with 
innovative potential performers. We can be doing more, however, to 
ensure that S&T is internally unified and using those connections 
toward a common purpose. I will foster an even greater Unity of Effort 
between elements of S&T like the Homeland Security Advanced Research 
Projects Agency, our university-based Centers of Excellence, our five 
operational homeland security labs, our Acquisition Support and 
Operations Analysis group, or our Small Business Innovation Research 
program. That will allow S&T to tailor our R&D portfolio performers to 
those suited to greater innovation or greater feasibility based on 
mission needs and demands.
    Having that type of agile, cross-connected, and empowered workforce 
means recognizing the value of taking a risk if the payout is a 
disruptive capability, such as total situational awareness at all land 
borders. In recent years, DHS S&T has not had this freedom or 
flexibility. But for the long-term health of DHS and the Homeland 
Security Enterprise, S&T and its stakeholders must be tolerant of more 
risk in S&T's R&D portfolio. We will still pursue lower-risk, more 
incremental projects where appropriate. But we will also foster 
innovation at S&T with institutional allowance for more risky projects 
that carry higher potential of failure but also significant potential 
for reward if the project succeeds. An R&D organization is not 
fulfilling its mission if it focuses on minor improvements to the last 
great thing at the cost of failing to pursue the next great thing; we 
must balance our workforce and our investments against that.
An Energized Homeland Security Industrial Base
    Another aspect of leveraging the full S&T ecosystem is fostering 
deeper engagement with an energized Homeland Security Industrial Base. 
The Department of Defense has the Defense Industrial Base, a private-
sector engine for design, production, and maintenance of our military's 
weapons and systems. When Defense needs a new missile, submarine, or 
communications network, industrial machinery outside of Government 
develops and delivers a product. While DHS cannot match the DoD's 
resources, I know from my time in industry that companies of all sizes 
are interested in doing business in homeland security.
    Our Department, similar to much of Government, is often criticized 
by industry for lack of transparency and failure to share information 
to help private companies align their own investments to where 
Government needs help. S&T will proactively address these criticisms. I 
have already noted some instances--an updated and actionable S&T 
Strategic Plan tailored to companies, a refined R&D requirements 
process, more effective outreach and information sharing, and a more 
transparent and informative web presence. My hope as under secretary 
is, through sustained and effective engagement with the Homeland 
Security Industrial Base, that we begin to see industry more closely 
align their internal R&D budgets to homeland security priorities.
                     s&t's value to the department
    Before I conclude, I think it is important to recognize that, 
although R&D is the backbone of our organization, S&T has more 
responsibilities and provides many more services to the Department than 
a traditional R&D organization. We coordinate and oversee operational 
test and evaluation for all major investments across DHS. We oversee 
implementation of the Support Anti-Terrorism by Fostering Effective 
Technologies Act of 2002, better known as the SAFETY Act, one of the 
more innovative approaches to incentivizing private development of 
homeland security-focused technology and services. With the DHS Office 
of the General Counsel, we are responsible for the entire Department's 
intellectual property portfolio. We work with all elements of the 
Department to ensure DHS compliance with treaties such as the 
Biological Weapons Convention. We operate laboratories, such as the 
National Biodefense Analysis and Countermeasures Center and Plum Island 
Animal Disease Center, whose missions extend beyond R&D to supporting 
operational homeland security missions. We provide technical support 
that backstops major Departmental initiatives such as end-to-end 
acquisition reform as part of the Secretary's Strengthening 
Departmental Unity of Effort initiative. The list goes on.
    Because of that wider role, and because our R&D work already 
connects us with operators throughout the Department, we are one of the 
elements of DHS that can serve as glue between operational elements. It 
is critical we preserve this and continue to be viewed as an objective 
arbiter and trusted partner, not an overseer or disrupter of 
operations. As this committee contemplates potential new authorities 
for S&T, please be mindful of this important dynamic. Achieving S&T's 
mission, bringing technology to the fore for components and first 
responders, supporting the Secretary's vision for the Department, and 
fulfilling our Congressional mandates rest largely on being able to 
leverage a positive relationship with our partners and end-users.
                               conclusion
    Your commitment to S&T's re-authorization validates the role the 
organization has grown into at DHS and is an important step to shedding 
the role R&D organizations often fall into today as bill payers for 
other shorter-term needs. Technology will be essential for answering 
the challenges we face in homeland security today, and S&T has a 
critical role to fill as the R&D engine of the Homeland Security 
Enterprise.
    I share a vision for the directorate to help highlight areas where 
we need your help. S&T today, through considerable work and dedication 
from its workforce, has made the most of an Industrial Age toolbox in a 
Digital Age R&D landscape. Re-authorization of S&T is a chance to 
empower an R&D organization for the 21st Century and to give us the 
flexibility to empower our workforce, engage more effectively with 
industry and other non-Government stakeholders, and bring more and 
better solutions to our DHS and first responder customers.
    Thank you for inviting me today to discuss S&T and share my vision 
for the directorate. I am thrilled to be a part of this organization 
and know that, with your support in Congress, we will continue making 
great strides and finding new and better ways to support homeland 
security operators. I look forward to your questions.

    Mr. Meehan. Thank you, Dr. Brothers.
    The Chairman now recognizes Mr. Maurer for your testimony.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Meehan, Chairman 
Bucshon, Chairman Smith, Ranking Member Thompson, Ranking 
Member Lipinski, Ranking Member Payne, and other Members and 
staff. I am pleased to be here today to discuss--I got 
everybody, that is good. I am pleased to be here today to 
discuss how the findings from GAO's recent work can help the 
Science and Technology Directorate position itself for the 
future.
    Every year, the taxpayers provide DHS over a billion 
dollars to support research and development. For that reason 
alone, the Department needs to ensure its R&D activities work 
as planned. R&D is also a crucial tool for helping DHS better 
execute its various missions. At the same time, R&D is 
inherently risky. Some projects will fail. S&T faces the 
challenge of striking the right balance between helping end-
users meet their mission needs, while also taking informed 
risks to push the boundaries of science.
    In recent years, we found that S&T has made important 
strides in taking a more strategic approach and tightening its 
links with the rest of DHS. S&T's coordination with DHS 
operational components is especially important. None of S&T's 
ideas and work will see real-world use without working closely 
with eventual end-users. In that regard, S&T's focus on 
tightening collaboration with the components is a promising 
sign. With that said, S&T clearly has a lot of work ahead to 
bring coherence and structure to its research and development 
efforts.
    Our work identified three key areas for improvement. We 
found that S&T needs to define R&D, do a better job tracking 
R&D, and improve how it coordinates R&D. In September 2012, we 
found a lot of activity across the Department that could be 
considered research and development. By law, S&T is responsible 
for overseeing and coordinating all of it. But they can't do 
that if the various DHS components aren't working from the same 
definition and agree on what should be coordinated.
    Our work also found problems in DHS' efforts to centrally 
track R&D. The Department struggled to answer basic questions, 
such as: How much are you spending, what projects are currently 
under way, and do completed projects meet the needs of their 
customers? For example, we found that DHS did not know how much 
its components invested in R&D. That makes it difficult to 
oversee activities across the Department.
    Our work also identified problems in coordination. Now, S&T 
coordinates with components in may different ways at may 
different levels. The problem is, some of these mechanisms need 
to work better and, in some cases, new approaches are needed.
    Specifically, the report we issued last year found that S&T 
lacked a formal process to follow up with the end-users of its 
deliverables. S&T customers were also much more likely to 
report that S&T's work did not meet end-user needs. In some 
instances, we were unable to locate an end-user for an S&T 
project. So what does this mean for the future? Looking down 
the road, it will be important for S&T to take action in three 
areas.
    First and foremost, we would like to see S&T and the 
Department fully implement the recommendations from our prior 
reports. DHS had recently issued a definition of R&D, and that 
is a good first step. We look forward to action on our other 
recommendations that will help S&T track and coordinate R&D 
activities. Those are important building blocks for the second 
action: Developing an updated strategy to guide S&T's future 
direction. Not just what it wants to do, but why and how it 
will be accomplished in a time of tight budget constraints. As 
we heard, S&T is currently working on this, which is 
encouraging. We look forward to seeing the results.
    Third, S&T needs a motivated and engaged workforce to carry 
out its mission. Unfortunately, last year, before Dr. Brothers 
was under secretary, S&T ranked 299 out of 300 Federal entities 
in the best places to work rankings. Understanding and 
addressing the root causes of low morale will help support 
successful implementation of any changes in strategic 
direction.
    S&T has an important role to play in identifying and 
filling gaps in technological capacities at DHS. Implementing 
GAO's recommendations, updating the strategic plan, and 
addressing morale issues will better position S&T to translate 
state-of-the-art science into usable tools that help enhance 
homeland security.
    That concludes my opening remarks. Thank you for the 
opportunity to testify this morning. I look forward to your 
questions.
    [The prepared statement of Mr. Maurer follows:]
                 Prepared Statement of David C. Maurer
                           September 9, 2014
                             gao highlights
    Highlights of GAO-14-865T, a testimony before the Cybersecurity, 
Infrastructure Protection, and Security Technologies Subcommittee of 
the Homeland Security Committee and the Research and Technology 
Subcommittee of the Science, Space, and Technology Committee, House of 
Representatives.
Why GAO Did This Study
    Conducting R&D on technologies for detecting, preventing, and 
mitigating terrorist threats is vital to enhancing the security of the 
Nation. Since its creation, DHS has spent billions of dollars 
researching and developing technologies used to support its missions. 
Within DHS, S&T conducts and is responsible for coordinating R&D across 
the Department. Other components also conduct R&D to support their 
respective missions.
    This statement discusses: (1) How much DHS invests in R&D and the 
extent to which DHS has policies and guidance for defining and 
overseeing its R&D efforts across the Department, (2) the extent to 
which R&D is coordinated across DHS, and (3) the results of DHS border 
and maritime security R&D efforts and the extent to which DHS has 
obtained and evaluated feedback on these efforts. This statement is 
based on GAO's previously-issued work from September 2012 to July 2014, 
and selected updates conducted in September 2014 on the status of GAO's 
prior recommendations. To conduct the updates, GAO reviewed agency 
documentation.
What GAO Recommends
    In its prior reports, GAO recommended, among other things, that DHS 
develop policies and guidance for defining, overseeing, coordinating, 
and tracking R&D activities across the Department, and that S&T 
establish time frames and milestones for collecting and evaluating 
feedback from its customers. DHS concurred with GAO's recommendations 
and has actions underway to address them.
    department of homeland security.--actions needed to strengthen 
                 management of research and development
What GAO Found
    In September 2012, GAO reported that the Department of Homeland 
Security (DHS) did not know the total amount its components had 
invested in research and development (R&D) and did not have policies 
and guidance for defining R&D and overseeing R&D resources across the 
Department. According to DHS, its Science and Technology Directorate 
(S&T), Domestic Nuclear Detection Office (DNDO), and Coast Guard were 
the only components that conducted R&D, and GAO found that these were 
the only components that reported budget authority, obligations, or 
outlays for R&D activities to the Office of Management and Budget. 
However, GAO identified an additional $255 million in R&D obligations 
made by other DHS components. At the time of GAO's review, DHS did not 
have a Department-wide policy defining R&D or guidance directing 
components how to report all R&D activities. GAO recommended that DHS 
develop policies and guidance to assist components in better 
understanding how to report R&D activities and better position DHS to 
determine R&D investments. DHS concurred with the recommendation and, 
as of September 2014, had updated its guidance to include a definition 
of R&D but efforts to develop a process for coordinating R&D with other 
offices remain on-going and have not yet been completed. GAO will 
continue to monitor DHS's efforts to develop its approach for 
overseeing R&D at the Department.
    GAO also reported in September 2012 that S&T had taken some steps 
to coordinate R&D efforts across DHS, but the Department's R&D efforts 
were fragmented and overlapping, a fact that increased the risk of 
unnecessary duplication. GAO recommended that DHS develop a policy 
defining roles and responsibilities for coordinating R&D and establish 
a mechanism to track all R&D projects to help DHS mitigate existing 
fragmentation and overlap and reduce the risk of unnecessary 
duplication. DHS concurred with the recommendation. As of September 
2014, S&T has not fully implemented new policy guidance but, according 
to S&T, is conducting portfolio reviews across the Department, as 
directed by the fiscal year 2013 appropriations act, aimed at 
coordinating R&D activities. GAO will continue to monitor DHS's efforts 
to develop a policy to better coordinate and track R&D activities at 
the Department.
    In September 2013, GAO reported that DHS border and maritime R&D 
components reported producing 97 R&D deliverables from fiscal years 
2010 through 2012 at an estimated cost of $177 million. GAO found that 
the type of border and maritime R&D deliverables produced by S&T, the 
Coast Guard, and DNDO varied, and R&D customers GAO met with had mixed 
views on the impact of the deliverables. These deliverables included 
knowledge products and reports, technology prototypes, and software. 
For example, S&T developed prototype radar and video systems for use by 
Border Patrol. However, GAO reported that S&T had not established time 
frames and milestones for collecting and evaluating feedback on the 
extent to which deliverables met customers' needs. GAO recommended that 
S&T establish time frames and milestones for collecting and evaluating 
such feedback from its customers to better determine the usefulness and 
impact of its R&D projects and make better-informed decisions regarding 
future work. As of September 2014, DHS had taken steps to address this 
recommendation, including making plans to gather customer feedback on a 
more consistent basis. GAO will continue to monitor DHS's efforts in 
this area.
    Chairman Meehan, Chairman Buschon, Ranking Member Clarke, Ranking 
Member Lipinski, and Members of the committees: I appreciate the 
opportunity to testify today about the results of the Department of 
Homeland Security's (DHS) research and development (R&D) efforts, 
including the extent to which its R&D efforts are coordinated within 
and beyond DHS and the results of DHS's border and maritime security 
R&D efforts. According to the Office of Management and Budget (OMB), 
R&D activities comprise creative work undertaken on a systematic basis 
in order to increase the stock of knowledge, including knowledge of 
man, culture, and society, and the use of this stock of knowledge to 
devise new applications.\1\ R&D is further broken down into the 
categories of basic research, applied research, and development.\2\
---------------------------------------------------------------------------
    \1\ OMB Circular No. A-11 Section 84.4. This definition includes 
administrative expenses for R&D, but excludes physical assets for R&D 
(such as R&D equipment and facilities), routine testing, quality 
control mapping, collection of general-purpose statistics, experimental 
production, routine monitoring and evaluation of an operational 
program, and the training of scientific and technical personnel.
    \2\ According to OMB, basic research is a systematic study directed 
toward a fuller knowledge or understanding of the fundamental aspects 
of phenomena and of observable facts without specific applications 
toward processes or products in mind. Applied research is a systematic 
study to gain knowledge or understanding to determine the means by 
which a recognized and specific need may be met. Development is a 
systematic application of knowledge or understanding, directed toward 
the production of useful materials, devices, and systems or methods, 
including design, development, and improvement of prototypes and new 
processes to meet specific requirements. OMB Circular No. A-11 Section 
84.
---------------------------------------------------------------------------
    Conducting R&D on technologies for detecting, preventing, and 
mitigating terrorist threats is vital to enhancing the security of the 
Nation. DHS, through its Science and Technology Directorate (S&T) and 
other components, conducts research, development, testing, and 
evaluation of new technologies that are intended to achieve a range of 
homeland security goals, including detecting and preventing the 
unauthorized entry of persons or contraband into the United States; 
strengthening efforts to prevent and respond to nuclear, biological, 
explosive, and other types of attacks; and securing U.S. ports and 
inland waterways. DHS S&T has responsibility for coordinating and 
integrating all R&D activities of the Department, as provided by the 
Homeland Security Act of 2002.\3\ S&T has five technical divisions 
responsible for managing the directorate's R&D portfolio and 
coordinating with other DHS components to identify R&D priorities and 
needs. Among those divisions, the Borders and Maritime Security 
Division (BMD) is responsible for most of S&T's border- and maritime-
related R&D, and its primary DHS customer is Customs and Border 
Protection (CBP). Also within S&T, the Office of University Programs 
manages the DHS Centers of Excellence, which constitute a network of 
universities that conduct research for DHS component agencies, with two 
centers dedicated specifically to border and maritime R&D.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 107-296,  302 (12), 116 Stat. 2135, 2163-64 
(codified as amended at 6 U.S.C.  182 (12)).
---------------------------------------------------------------------------
    Although S&T conducts R&D and has responsibility for coordinating 
R&D, other DHS components, including the Domestic Nuclear Detection 
Office (DNDO) and the U.S. Coast Guard, conduct R&D in support of their 
respective missions. DNDO, for example, conducts R&D related to 
detecting the use of an unauthorized nuclear explosive device, fissile 
material, or radiological material in the United States.\4\ The U.S. 
Coast Guard's R&D efforts support all of the various Coast Guard 
missions, such as search and rescue, migrant interdiction, and marine 
safety.
---------------------------------------------------------------------------
    \4\ DNDO was established by National Security Presidential 
Directive 43, Homeland Security Presidential Directive 14, and the 
Security and Accountability for Every Port Act of 2006 (SAFE Port Act). 
Pub. L. No. 109-347,  501(a), 120 Stat. 1884, 1932 (codified at 6 
U.S.C.  591-596).
---------------------------------------------------------------------------
    Since it began operations in 2003, DHS, through both S&T and other 
components, has spent billions of dollars researching and developing 
technologies used to support a wide range of missions. In June 2009, 
the National Academy of Public Administration (NAPA) reported on S&T's 
structure, processes, and the execution of its cross-Government 
leadership role.\5\ NAPA reported that although S&T was charged by 
statute to provide a leading role in guiding homeland-security-related 
research, S&T has no authority over other Federal agencies that conduct 
homeland-security-related research, and that the weaknesses in S&T's 
strategic planning increased the risk for duplication of efforts. NAPA 
recommended, among other things, that S&T follow OMB and GAO guidance 
in formulating a strategic plan to guide its work. In July 2012, S&T 
provided a draft strategy that identifies the roles and 
responsibilities for coordinating homeland security science- and 
technology-related functions across the U.S. Government to the White 
House's Office of Science & Technology Policy for review. We reported 
in July 2013 that the White House had not yet approved that draft.
---------------------------------------------------------------------------
    \5\ National Academy of Public Administration, Department of 
Homeland Security Science and Technology Directorate: Developing 
Technology to Protect America (Washington, DC: June 2009).
---------------------------------------------------------------------------
    To report R&D-related spending, DHS uses several mechanisms, 
including budget authority (the legal authorization to obligate funds), 
obligations (binding agreements to make a payment for services), and 
outlays (payments to liquidate obligations representing amount 
expended). Further, OMB requires agencies to submit data on R&D 
programs as part of their annual budget submissions on investments for 
basic research, applied research, development, R&D facilities 
construction, and major equipment for R&D using OMB's definition of 
R&D. R&D is further broken down into the categories of basic research, 
applied research, and development.
    My testimony today is based on previously-issued reports and 
addresses: (1) How much DHS invests in R&D and the extent to which it 
has policies and guidance for defining R&D and overseeing R&D resources 
and efforts across the Department; (2) the extent to which R&D is 
coordinated within DHS to prevent overlap, fragmentation, and 
unnecessary duplication across the Department; and (3) the results of 
DHS's border and maritime security R&D and the extent to which DHS 
obtained and evaluated feedback on these efforts.
    This statement is based on our previous reports and testimonies 
issued from September 2012 to July 2014, with selected updates 
conducted in September 2014 related to S&T's efforts to better manage 
and coordinate its border and maritime R&D efforts.\6\ To conduct our 
earlier work, among other things, we analyzed data related to DHS's R&D 
budget authority for fiscal years 2010 through 2013, R&D contracts 
issued by components to private industry and universities for fiscal 
years 2007 through 2011, and the Department of Energy's (DOE) National 
laboratories from fiscal years 2010 through 2012 to identify how much 
DHS components obligated for R&D-related work at the National 
laboratories. We also met with selected R&D project managers and 
customers. For the selected updates, we reviewed agency documentation 
on DHS's progress in implementing our prior recommendations. The 
reports cited provide detailed explanations of our scope and 
methodology.\7\ The work upon which this statement is based was 
conducted in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \6\ GAO, Department of Homeland Security: Oversight and 
Coordination of Research and Development Should Be Strengthened, GAO-
12-837 (Washington, DC: Sept. 12, 2012); 2013 Annual Report: Actions 
Needed to Reduce Fragmentation, Overlap, and Duplication and Achieve 
Other Financial Benefits, GAO-13-279SP (Washington, DC: Apr. 9, 2013); 
Department of Homeland Security: Opportunities Exist to Strengthen 
Efficiency and Effectiveness, Achieve Cost Savings, and Improve 
Management Functions, GAO-13-547T (Washington, DC: Apr. 26, 2013); 
Government Efficiency and Effectiveness: Opportunities to Reduce 
Fragmentation, Overlap, and Duplication Through Enhanced Performance 
Management and Oversight, GAO-13-590T (Washington, DC: May 22, 2013); 
Department of Homeland Security: Opportunities Exist to Better Evaluate 
and Coordinate Border and Maritime Research and Development, GAO-13-732 
(Washington, DC: Sept. 25, 2013); Department of Homeland Security: 
Oversight and Coordination of Research and Development Efforts Could Be 
Strengthened, GAO-13-766T (Washington, DC: July 17, 2013); Department 
of Homeland Security: Continued Actions Needed to Strengthen Oversight 
and Coordination of Research and Development, GAO-14-813T (Washington, 
DC: July 31, 2014).
    \7\ GAO-12-837 and GAO-13-732.
---------------------------------------------------------------------------
dhs does not know its total investment in r&d, but has taken some steps 
                           to update guidance
    In September 2012, we found that DHS did not know how much its 
components have invested in R&D, making it difficult to oversee R&D 
efforts across the Department. According to DHS budget officials, S&T, 
DNDO, and the U.S. Coast Guard were the only components that conducted 
R&D, and we found that they were the only components that reported 
budget authority, obligations, or outlays for R&D activities to OMB as 
part of the budget process. However, we reported that the data DHS 
submitted to OMB underreported DHS's R&D obligations because DHS 
components obligated money for R&D contracts that were not reported to 
OMB as R&D. Specifically, for fiscal year 2011, we identified an 
additional $255 million in R&D obligations by other DHS components. 
These obligations included DHS components providing S&T with funding to 
conduct R&D on their behalf and components obligating funds through 
contracts directly to industry, to universities, or with DOE's National 
laboratories for R&D.
    Further, we found that the data for fiscal years 2010 through 2013 
DHS submitted to OMB also underreported DHS's R&D budget authority and 
outlays because DNDO did not properly report at least $293 million in 
R&D budget authority and at least $282 million in R&D outlays.\8\ We 
reported that DHS budget officials agreed that DHS underreported its 
R&D spending and when asked, could not provide a reason why the 
omission was not flagged by DHS review.
---------------------------------------------------------------------------
    \8\ At the time of our report, budget figures for fiscal year 2013 
were agency estimates.
---------------------------------------------------------------------------
    In addition, in our 2012 report, we found that DHS's R&D budget 
accounts included a mix of R&D and non-R&D spending. For fiscal year 
2011, we estimated that 78 percent of S&T's Research, Development, 
Acquisition, & Operations account; 51 percent of DNDO's Research, 
Development, & Operations account; and 43 percent of the Coast Guard's 
R&D budget account funded R&D activities. As a result, this further 
complicated DHS's ability to identify its total investment in R&D.
    We also reported in September 2012 that DHS did not have a 
Department-wide policy defining R&D or guidance directing components 
how to report R&D activities. As a result, we concluded that it was 
difficult to identify the Department's total investment in R&D, a fact 
that limited DHS's ability to oversee components' R&D efforts and align 
them with agency-wide R&D goals and priorities, in accordance with 
Standards for Internal Control in the Federal Government.\9\ DHS 
officials told us at the time that DHS used OMB's definition of R&D, 
but the definition was broad and its application may not be uniform 
across components, and thus, R&D investments may not always be 
identified as R&D. We found that the variation in R&D definitions may 
contribute to the unreliability of the reporting mechanisms for R&D 
investments in budget development and execution, as discussed above.
---------------------------------------------------------------------------
    \9\ Standards for Internal Control in the Federal Government states 
that policies and mechanisms are needed to enforce management's 
directives, such as the process of adhering to requirements for budget 
development and execution and to ensure the reliability of those and 
other reports for internal and external use. GAO, Standards for 
Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 
(Washington, DC: Nov. 1999).
---------------------------------------------------------------------------
    We recommended that DHS develop and implement policies and guidance 
for defining and overseeing R&D at the Department that include, among 
other things, a well-understood definition of R&D that provides 
reasonable assurance that reliable accounting and reporting of R&D 
resources and activities for internal and external use are achieved. 
DHS agreed with our recommendation and stated that it planned to 
evaluate the most effective path forward to guide uniform treatment of 
R&D across the Department in compliance with OMB rules and was 
considering a management directive, multicomponent steering committee, 
or new policy guidance to help better oversee and coordinate R&D. As of 
September 2014, DHS has updated its guidance to include a definition of 
R&D, but, as discussed in more detail below, efforts to develop a 
specific policy outlining R&D roles and responsibilities and a process 
for overseeing and coordinating R&D with other offices remain on-going 
and have not yet been completed. We will continue to monitor DHS's 
efforts to implement these recommendations.
   s&t has taken some actions to coordinate r&d across dhs, but r&d 
               activities are fragmented and overlapping
    We reported in September 2012 that the Homeland Security Act of 
2002 provides S&T with the responsibility for, among other things, 
coordinating and integrating all research, development, demonstration, 
testing, and evaluation activities within DHS and establishing and 
administering the primary R&D activities of the Department.\10\ S&T 
developed coordination practices that fall into four general 
categories: (1) S&T component liaisons, (2) R&D agreements between 
component heads and S&T, (3) joint R&D strategies between S&T and 
components, and (4) various R&D coordination teams made up of S&T and 
component project managers, which are discussed in detail in our 2012 
report and 2013 testimony.\11\
---------------------------------------------------------------------------
    \10\ 6 U.S.C.  182(11)-(12).
    \11\ GAO-12-837. GAO, Department of Homeland Security: Oversight 
and Coordination of Research and Development Efforts Could be 
Strengthened, GAO-13-766T (Washington, DC: July 17, 2013).
---------------------------------------------------------------------------
    Despite S&T's efforts to coordinate R&D activities, in September 
2012, we reported that R&D at DHS was inherently fragmented because 
several components within DHS--S&T, the Coast Guard, and DNDO--were 
each given R&D responsibilities in law, and other DHS components may 
pursue and conduct their own R&D efforts as long as those activities 
are coordinated through S&T. Fragmentation among R&D efforts at DHS may 
be advantageous if the Department determines that it could gain better 
or faster results by having multiple components engage in R&D 
activities toward a similar goal; however, it can be disadvantageous if 
those activities are uncoordinated or unintentionally overlapping or 
duplicative.
    Specifically, we found at least six Department components involved 
in R&D activities in our review of data on about 15,000 Federal 
procurement contract actions coded as R&D taken by DHS components from 
fiscal years 2007 through 2012. We examined 47 R&D contracts awarded by 
these components--selected because they appeared to have activities 
similar to those of another contract--and found 35 instances among 29 
contracts in which the contracts overlapped with activities conducted 
elsewhere in the Department. Taken together, these 29 contracts were 
worth about $66 million. In one example of the overlap, we found that 
two DHS components awarded 5 separate contracts that each addressed 
detection of the same chemical.
    While we did not identify instances of unnecessary duplication 
among these contracts, in September 2012, we found that DHS had not 
developed a policy defining who is responsible for coordinating R&D 
activities at DHS that could help prevent overlap, fragmentation, or 
unnecessary duplication and did not have tracking mechanisms or 
policies to help ensure that overlap is avoided and efforts are better 
coordinated consistent with Standards for Internal Control in the 
Federal Government.\12\ S&T officials told us at the time that a 
process did not exist at DHS or within S&T to prevent overlap or 
unnecessary duplication but that relationships with components mitigate 
that risk. They also stated that S&T has improved interactions with 
components over time. We concluded that the existence of overlapping 
R&D activities coupled with the lack of policies and guidance defining 
R&D and coordination processes was an indication that not all R&D 
activities at DHS were coordinated to ensure that R&D is not 
unnecessarily duplicative.
---------------------------------------------------------------------------
    \12\ GAO's Standards for Internal Control in the Federal Government 
states that policies and procedures ensure that the necessary 
activities occur at all levels and functions of the organization--not 
just from top-level leadership. This ensures that all levels of the 
organization are coordinating effectively and as part of a larger 
strategy. Additionally, internal control standards provide that 
agencies should communicate necessary information effectively by 
ensuring that they are communicating with, and obtaining information 
from, external stakeholders that may have a significant impact on the 
agency achieving its goals.
---------------------------------------------------------------------------
    We also found in September 2012 that neither DHS nor S&T tracked 
all on-going R&D projects across the Department, including R&D 
activities contracted through the National laboratories. As part of our 
review, we identified 11 components that reimbursed the National 
laboratories for R&D from fiscal years 2010 through 2012, but S&T's 
Office of National Laboratories could not provide us with any 
information on those activities and told us it did not track them. 
According to S&T, the Office of National Laboratories' ability to 
provide information on activities across the Department is limited by 
components inconsistently operating within the defined process for 
working with the National laboratories.\13\
---------------------------------------------------------------------------
    \13\ The Homeland Security Act of 2002 gave DHS the authority to 
use DOE laboratories to conduct R&D and established S&T's Office of 
National Laboratories (ONL) to be responsible for coordinating and 
using the DOE National laboratories. Pub. L. No. 107-296,  309, 116 
Stat. 2135, 2172 (2002) (codified at 6 U.S.C.  189). Additionally, DHS 
Directive 143 further directs ONL to serve as the primary point of 
contact to recommend contracting activity approval for work by the 
National laboratories, and review all statements of work issued from 
DHS and directed to the National laboratories.
---------------------------------------------------------------------------
    As a result, we recommended that DHS develop and implement policies 
and guidance for overseeing R&D that includes, among other things, a 
description of the Department's process and roles and responsibilities 
for overseeing and coordinating R&D investments and efforts, and a 
mechanism to track existing R&D projects and their associated costs 
across the Department. DHS agreed with our recommendation and stated at 
the time that S&T was implementing a collaborative, end-user-focused 
strategy to coordinate and interact with components to better ensure 
S&T's efforts aligned with components' needs and that it was 
considering developing new policy guidance for R&D activities across 
the Department. According to DHS officials, the Department implemented 
an R&D portfolio review process, as directed by committee reports 
accompanying the fiscal year 2013 DHS Appropriations Act, which is 
aimed at better coordinating R&D activities by reviewing components' 
individual R&D projects.\14\ In April 2014, DHS developed a definition 
for R&D and stated that S&T was responsible for coordinating and 
integrating R&D activities throughout the Department. However, as of 
September 2014, not enough time has passed to determine whether this 
process and new memorandum have improved coordination. Furthermore, to 
better define and manage R&D across the Department, DHS should also 
establish a mechanism to track R&D projects and costs, as we 
recommended. Fully implementing our recommendation to develop a policy 
that defines roles and responsibilities for coordinating R&D and 
coordination processes, as well as a mechanism that tracks all DHS R&D 
projects, could better position DHS to mitigate the risk of overlapping 
and unnecessarily duplicative R&D projects. We will continue to monitor 
DHS's efforts to develop a policy to better coordinate and track R&D 
activities at the Department.
---------------------------------------------------------------------------
    \14\  H.R. Rep. No. 112-492, at 133; S. Rep. No. 112-169, at 15-16.
---------------------------------------------------------------------------
 s&t has taken steps to obtain feedback and evaluate the impact of its 
                    border and maritime r&d efforts
Costs and Types of Completed Border and Maritime R&D Projects Varied
    In September 2013, we reported that DHS S&T, Coast Guard, and DNDO 
reported producing 97 R&D deliverables at an estimated cost of $177 
million between fiscal years 2010 and 2012. The type of border and 
maritime R&D deliverables produced by these R&D entities were wide-
ranging in their cost and scale, and included knowledge products and 
reports, technology prototypes, and software.\15\ For example:
---------------------------------------------------------------------------
    \15\ A complete list of all 97 projects for fiscal years 2010 
through 2012 and their costs and project type can be found in appendix 
I of GAO-13-732.
---------------------------------------------------------------------------
  <bullet> Knowledge products or reports.--One of the DHS Centers of 
        Excellence developed formulas and models to assist in 
        randomizing Coast Guard patrol routes and connecting networks 
        together to assist in the detection of small vessels.
  <bullet> Technology prototypes.--S&T BMD developed prototype radar 
        and upgraded video systems for use by Border Patrol Agents and 
        a prototype scanner to screen interior areas of small aircraft 
        without removing panels or the aircraft skin.
  <bullet> Software.--DNDO developed software that extracts data from 
        radiation portal monitors and uses the data to improve 
        algorithms used in detecting radioactive material.
    As we reported in September 2013, R&D customers we met with had 
mixed views on the impact of the R&D deliverables they received. For 
example, we reviewed the 20 S&T BMD deliverables produced between 
fiscal years 2010 and 2012 at a cost of $28.7 million. We found that 
the customers of 7 deliverables stated that the deliverables met their 
office's needs, customers of 7 did not, customers of 4 did not know, 
and customers for 2 could not be identified.\16\ For example, customers 
within CBP's Office of Technology Innovation and Acquisition reported 
that S&T's analysis and test results on aircraft-based use of wide area 
surveillance technology helped CBP to make a decision on whether it 
should pursue acquiring such technology. In cases where customers said 
that the deliverables were not meeting their needs, the customers 
explained that budget changes, other on-going testing efforts, or 
changes in mission priorities were the reasons deliverables had not met 
their needs, and customers pointed out that their relationship with S&T 
had been positive and highly collaborative. In other cases, customers 
pointed out that while the deliverable had not been used as intended, 
it informed their office's decision making and helped to rule out 
certain technologies as possibilities. In this regard, the customers 
felt the R&D was successful, despite the fact that the deliverable had 
not or was not being used.
---------------------------------------------------------------------------
    \16\ This figure does not include projects from the S&T Office of 
University Programs, which reported completing 18 border- and maritime-
related projects at a cost of $6.1 million.
---------------------------------------------------------------------------
    S&T BMD officials explained that some of its older projects did not 
have identifiable customers because its former process for selecting 
projects created the potential to engage in R&D without a clear 
commitment from the customer. In February 2012, S&T issued a new 
project management guide that requires project managers to specify the 
customer by office and name, and to describe customer support for the 
project, including how the customer has demonstrated commitment for and 
support of the project. S&T officials said they believed this new 
process would prevent future R&D funding from going toward projects 
without a clear customer.
    Additionally, we reported that from fiscal year 2010 through fiscal 
year 2012, DNDO produced 42 deliverables at a cost of $115.9 million, 
which included 6 discontinued projects and 36 projects that were either 
transitioned to the next phase of R&D or were completed. DNDO R&D is 
different from the R&D of S&T for many reasons. For one, a DNDO project 
may start at a basic research level, and may end up being merged into 
other similar efforts in order to achieve a higher project goal. In 
these cases, the R&D customers are DNDO project managers rather than 
another DHS customer, such as CBP. We discussed 5 DNDO R&D deliverables 
at various R&D phases with DNDO officials--4 of which were deliverables 
from on-going or completed projects and 1 of which was a discontinued 
project. These officials said that the early-stage R&D at DNDO feeds 
into the prioritized ranking of gaps in the global nuclear detection 
architecture, as well as into the analysis-of-alternatives phase of 
DNDO's solutions development process.\17\ Two of the 5 projects we 
discussed had moved from early-stage R&D into other projects further 
along in DNDO's project management process. Two of the 5 projects were 
completed, with 1 project that was reported to have provided 
information that further informed DNDO decision making and the other 
project resulting in a commercialized product. With regard to the 1 
discontinued project, DNDO officials said that the particular project's 
technology was determined to be too expensive to continue pursuing.
---------------------------------------------------------------------------
    \17\ The global nuclear detection architecture is an integrated 
system of radiation detection equipment and interdiction activities to 
combat nuclear smuggling in foreign countries, at the U.S. border, and 
inside the United States.
---------------------------------------------------------------------------
S&T Did Not Gather and Evaluate Feedback
    We reported that although S&T project managers sought feedback from 
their customers during the execution of projects, S&T did not gather 
and evaluate feedback from its customers to determine the impact of its 
completed R&D efforts and deliverables, making it difficult to 
determine if the R&D met customer needs. Further, in some cases, the 
customer of S&T's R&D was not clear or the results of the R&D were 
unknown. For example, a CBP customer identified by S&T was aware of 2 
R&D deliverables that S&T said were transitioned to his office, but the 
official was unable to provide additional information on the project's 
impact. According to S&T officials, since they deal with multiple DHS 
components and are not within the same agencies as its customers, it is 
sometimes difficult to identify who the customer of the R&D is and also 
difficult to determine what the impact of the R&D was. S&T officials 
also stated that in S&T's 2012 update to its project management guide, 
in its project closeout process, S&T has included a step to collect 
feedback from all relevant customers and a template for collecting this 
feedback.
    While we found in September 2013 that S&T had developed a process 
and template to collect feedback at the end of each project and 
incorporated this into its project management plan, we also found that 
it did not plan to survey customers each time it provides a deliverable 
to the customer. This is relevant because S&T projects are often 
conducted over several years before they are concluded and these 
projects also often produce multiple deliverables for a customer over 
many years that are designed to meet a specific operational need. For 
example, the Ground-Based Technologies project began in fiscal year 
2006 and is slated to continue through fiscal year 2018. During this 
period, S&T has provided multiple R&D deliverables to CBP--including 
test results comparing different ground-based radar systems. The 
National Academy of Sciences has stated that feedback from both R&D 
failures and successes may be communicated to stakeholders and used to 
modify future investments.\18\ At the time of our report, S&T had not 
established time frames and milestones for collecting and evaluating 
feedback from its customers on the extent to which the deliverables it 
provides were meeting its customers' needs.
---------------------------------------------------------------------------
    \18\ National Academy of Sciences, Best Practices in Assessment of 
Research and Development Organizations. 2012.
---------------------------------------------------------------------------
    As a result, we recommended that S&T establish time frames and 
milestones for collecting and evaluating feedback from its customers to 
determine the usefulness and impact of both its R&D projects and 
project deliverables, and use it to make better-informed decisions 
regarding future work. S&T officials concurred with the recommendation 
at the time of our review, and reported that S&T was developing R&D 
strategies with DHS components that would include strategic assessments 
of components' R&D needs and be updated annually on the basis of 
customer feedback. As of September 2014, S&T has completed strategic 
plans with Border Patrol, the Transportation Security Administration 
(TSA), and the Secret Service. Further, at the time of our review, S&T 
reported that it was developing a new project management guide to 
improve R&D management at all stages of development, and that the guide 
would include a template for project managers to use to gather customer 
feedback on a more consistent basis. In November 2013, S&T finalized 
its guide, which includes a customer survey template to obtain feedback 
on the quality and timeliness of a deliverable, as well as detailed 
descriptions of actions project managers should take throughout the 
project to ensure the R&D is aligned with customer needs. We will 
continue to review the implementation of these actions and determine 
whether they fully address our recommendation to S&T.
DHS Border and Maritime R&D Agencies Have Taken Action to Improve 
        Internal and External R&D Coordination
    In September 2013, we also reported that S&T's BMD, the Coast 
Guard, and DNDO reported taking a range of actions to coordinate with 
one another and their customers to ensure that R&D is addressing high-
priority needs. Officials from BMD identified several ways in which it 
coordinates R&D activities with its customers, which are primarily 
offices within CBP. For example, BMD officials reported having a person 
detailed to CBP's Office of Technology Innovation and Acquisition and 
identified its integrated product teams, such as its cross-border 
tunnel threat team, and jointly-funded projects as ways in which the 
division works to ensure its R&D efforts are coordinated with CBP. We 
found that opportunities exist for DHS to enhance coordination with 
universities conducting R&D on its behalf. Specifically, we reported 
that the S&T Office of University Programs could help ensure that the 
approximately $3 million to $4 million a year dedicated to each 
university center is used more effectively by more carefully 
considering data needs, potential access issues, and potential data 
limitations with its Federal partners before approving projects. We 
recommended that S&T ensure design limitations with regard to data 
reliability, accessibility, and availability are reviewed and 
understood before approving Center of Excellence R&D projects. S&T 
Office of University Programs officials concurred with the 
recommendation and discussed the variety of ways in which centers and 
DHS components collaborate and share information. Office of University 
Programs officials stated that the office's process for soliciting 
research topics and evaluating proposals is good and that it keeps the 
centers flexible. However, officials from DHS's primary land border 
security Center of Excellence reported challenges with respect to a 
lack of clarity regarding protocols for access to DHS information when 
conducting R&D. Specifically, officials from this center reported that 
they have been regularly unable to obtain data from CBP to complete 
research it was conducting on CBP's behalf, which resulted in delays 
and terminated R&D projects.
    Given the challenges raised by officials from universities leading 
the R&D for land border security, we recommended that S&T conduct a 
more rigorous review of potential data-related challenges and 
limitations at the start of a project in order to help R&D customers 
(such as CBP) identify data requirements and potential limitations up 
front so that money is not allocated to projects that potentially 
cannot be completed. In concurring with our recommendation, S&T Office 
of University Programs officials agreed that making sure their clients 
take additional steps to identify data requirements up-front could help 
address these challenges and following our review had started taking 
steps to address this. For instance, in September 2013, the Office of 
University Programs reported that it was working to develop standard 
guidelines and protocols that would apply to all of its Centers of 
Excellence. These protocols would describe how data sets must be 
modified to enable their use in open-source research formats. In March 
2014, the Office of University Programs and the National Center for 
Border Security and Immigration, a DHS S&T Center of Excellence, co-
hosted a workshop to identify common problems the centers have in 
accessing data from DHS, understand DHS constraints in sharing data, 
and develop best practices for requesting and sharing data between the 
Centers of Excellence and DHS. We believe this is a step in the right 
direction and should move S&T closer toward meeting the intention of 
our recommendation. We will continue to monitor DHS's efforts in this 
area.
    Chairman Meehan, Chairman Buschon, Ranking Member Clarke, Ranking 
Member Lipinski, and Members of the committees, this completes my 
prepared statement. I would be happy to respond to any questions you 
may have at this time.

    Mr. Meehan. I want to thank the witnesses for their opening 
statements. I now recognize myself for 5 minutes of 
questioning.
    I appreciate your laying out, in your written testimony, 
Dr. Brothers, your visionary goals: Screening at speed, trust 
in cyber future, enable the decision maker and responder of the 
future. I think those really project some sense in a very 
difficult environment, where you would like to sort-of see 
empowerment, but you have just heard the testimony of your 
oversight partner who is looking at--in the language, you know, 
fragmented and overlapping activity, working on defining just 
what research and development is.
    But even if it finally gets to a point where people share 
that definition, you know, how do you track it? So there are 
some sort of fundamentals that are necessary in order for us to 
have confidence that the over $1 billion is being--in research 
funding is being appropriately focused. I applaud you for your 
vigor with which you have taken on this challenge. Maybe you 
can share with me your idea of how you take those visions and 
combine them with the kind of structured plan, so to speak, 
that will implement more fully the kinds of assurances that 
there is focus and value associated with the research that is 
being done.
    Under Secretary Brothers. I want to thank you for giving me 
the opportunity to talk about that. So you mentioned the 
visions. The goal here was to give S&T, our workforce, to give 
other stakeholders, to give this S&T ecosystem that we talk 
about--industry, academia, and labs--a common north star, if 
you will, of where we want to go as an ecosystem. All right, 
altogether. I think those are 20- or 30-year kind of goals, 
right? We all understand that.
    So now you are getting at, how do we get there? I think 
that is what--as we mentioned before, the strategy. So now we 
have got these longer-term visions. Now we have to have to 
develop a strategy that talks about the baseline of where we 
are right now with respect to those longer-term visions. It 
talks where do we want to be in 5 years. It articulates in an 
actionable way, the ways and means we get there. So that is the 
next step.
    The next step is actually develop this strategy. The 
framework that we are working on right now, at the end of this 
year we will be completed of that. Then we should be getting 
the full document to share. So that is the next step, is 
getting the strategy going. Now, there are other parts of this 
that have to work together. So if we look at the strategy, the 
strategy is gonna have essentially three parts to it. We have 
to talk about how do we generate capability gaps.
    So I want to make a little distinction here between one 
thing that was mentioned earlier in the opening comments: Our 
role as providing support for acquisition, which we are doing 
within the Secretary's Unity of Effort initiatives. Also our 
responsibility to provide advanced science technology 
capabilities. To do that, we define capability gaps. So let's 
think of it this way. This is my favorite teacup. The 
capability gap that I need to fill for this teacup was how to 
keep the water for some number of hours, longer than most 
meetings.
    That is a capability gap. Research had to go into materials 
that would enable us--enable somebody to do that affordably. 
They had to come up with how heavy this thing should be, what 
color it should be, all that. That is where we are getting into 
requirements. So we now have requirements is associated with 
the acquisition support, capability gaps with our R&D. So that 
said, we ought to start thinking about, how do we do our 
capability gap generation?
    Here is what I would like to do. I talked to both Dr. 
O'Toole----
    Mr. Meehan. Can I ask you--you are talking about capability 
gaps, and I get that. But one of the pieces that frustrates me, 
but I think it is understandable, is when any of us contemplate 
the universe of potential actions that could happen to us it is 
easy to almost be overwhelmed when you think about the 
thousands of ways in which we must protect ourselves. I think, 
in reality, the smart approach is not to worry about every 
single thing, but to be prioritizing and looking to identify 
ways in which we can minimize the risks that we are facing and 
focus, in a way.
    How do you take these objectives, which are sort of far-
reaching, and put some discipline into the organization so that 
we don't see what often happens in bureaucracies and other 
things? People get a vested stake in what they are doing.
    Under Secretary Brothers. That is absolutely right.
    Mr. Meehan. They are saying this is important to me. It can 
be directed by outside influences and get the ear of somebody 
that says, hey, I got a great new technology, you guys got to 
be researching this. Things get their own institutional 
imperative. How do you ride herd over the big mass of movement 
and give it focus and direction to say, hey, no, these are the 
priorities and these are the things that we need to focus on to 
maximize the potential as both to be a shield against potential 
future harm with changing technologies that we know constantly 
change the nature of that harm, as well as, you know, the needs 
that we have to protect ourselves?
    Under Secretary Brothers. So I think we have to look at 
analytic capabilities to try to figure that out. Because, like 
you said, you could have the threat of the day phenomenon. Or 
you could have some--as you said, someone could have their 
favorite project. So as you probably know, S&T does threat 
assessments--threat risk assessments, TRAs, in different areas. 
There are also a variety of analyses that have looked at what 
are the probability of various threats versus their impact. So 
if you look--if you think about this.
    So you have got some set of threats, some probability it 
will happen--whether it is not that likely versus very likely. 
Then on the other axis, you might have high-impact. What we 
should be looking at, I believe, are those things that are 
high-impact. We can't just look at things that are low-
probability, high-impact because other things will happen. So I 
think we first start with that. What are the things that are 
high-impact, potentially high-impact? There is analysis that 
look at that, right, both from the public--from the private 
sector as well as from the Federal Government.
    So we start winnowing down our portfolio based on those. 
Now, internally, you see the apex. So internally we have got 
these visions. What we have done, then, is talk to our 
component partners to try to come up with, so what are the 
things we should really focus on? When I first came to this 
position, I asked the folks in directorate to give me a review 
of the different projects, to understand really what we are 
doing, what our investments are going towards.
    We did that. It is a very good process. It is a very good 
process, it helped in a number of ways. It helped for everyone 
in the organization to understand what we are doing. But in 
doing so, I understood that we have a lot of projects that some 
of which are of lower investment value or potentially lower-
impact. So my goal is, then, to consolidate some of those 
programs so we have higher impact in specifically-targeted 
areas. So those are the areas that we are calling these Apex 
programs.
    So Dr. O'Toole, the prior Secretary, had Apex programs that 
were primarily 2-year in extent, in time duration. I would like 
to extend those to 5 years. But I would like to have those--
have more of them so that we can have real impact in the areas 
that are high-impact in terms of threat, that we have buy-in 
from operational partners. But not only that, that are in the 
art of the possible, scientifically and technically, to come up 
with a solution.
    Mr. Meehan. So let me--already, thank you for that. I want 
to be careful that I don't run over too significantly on my 
time. I know you can develop that further in questions that 
will be generated by my colleagues.
    So in that line, allow me to recognize the gentleman from 
New Jersey, Mr. Payne, for any questions he may have.
    Mr. Payne. Thank you, Mr. Chairman. Under Secretary, it is 
really good to have you here, and congratulations for coming 
through the confirmation process unscathed, maybe.
    Under Secretary Brothers. I didn't say that.
    Mr. Payne. Possibly. You know, over the years this 
subcommittee has seen a number of direct reports to the under 
secretary vary. There are benefits and costs of streamlining 
the organizational structure to reduce the number of direct 
reports to the under secretary. Have you had a chance to 
evaluate the number of direct reports to you? If so, are you 
planning any changes?
    Under Secretary Brothers. So when I came into the 
organization I was aware of kind of three guiding principles 
for thinking about reorganization. The first one is form 
follows function. Form follows function. So what I want to do 
is, once we developed our strategy is then try to understand 
what that implies with the organization. I don't want to come 
in without that and start reorganizing for the sake of doing 
so. So form follows function. We will have a strategy, we will 
reorganize to effectively carry out that strategy.
    The second principle is maximizing efficiencies, obviously. 
So that is what we will have to look at, and we are doing some 
of that right now within existing structures. The third part 
is, reorganization leads to disruption. So my third guiding 
principle is, minimize disruption. We have got some--not a lot 
of time to deal with some very important threats. The more we 
disrupt our workforce, the less efficiently and effectively we 
will be able to carry out our mission. So my goal is to 
minimize the disruption in working day-to-day of our workforce, 
while simultaneously have an organization where form truly 
follows function and we can most effectively achieve the 
strategy that we will be building and sharing with you in the 
near future.
    Mr. Payne. But you--do you see a need for streamlining in 
terms of the number of reports that----
    Under Secretary Brothers. I can't say I see a need right 
now.
    Mr. Payne. Okay.
    Under Secretary Brothers. I can say that as we are looking 
for the strategy I will have more information, going forward. 
But I don't look for--I do not look for major reorganization.
    Mr. Payne. Okay, in the area of basic research and 
innovation----
    Under Secretary Brothers. Yes.
    Mr. Payne [continuing]. Could you give us an update on the 
overview of the agreement between S&T Advanced Research 
Projects Agency and TSA entitled ``Research and development 
tests and evaluation strategic plan'' that was signed in 2013?
    Under Secretary Brothers. So I can give you some sense of 
that. For more detail, I will be more than glad to get back 
with you on that. I actually met with the TSA CTO recently to 
talk about our relationship. We have simultaneously worked on 
strategies. So where we are--right now, S&T is working on road 
maps, our technology road maps. These are influencing and have 
been influenced by what our component partners do. For example, 
the strategy at the TSA, the agreement that you mentioned.
    We are currently working with TSA on--in fundamental 
areas--including explosives detection. In more applied areas, 
including actually developing devices. In the deployment phase, 
as well. So we are looking--working with TSA across the full 
life cycle, trying to understand how we can most quickly and 
also effectively get new technologies out there to combat newer 
threats.
    Mr. Payne. Okay. You know, along those lines, you know the 
committee has always asked that S&T develop and implement clear 
and transparent processes and criteria for identifying basic 
research and innovation, needs, prioritizing projects, and 
selecting performers. However, it is always an issue of 
contention that there is no clear basis for concluding that the 
current allocation of basic research is appropriate S&T-wide 
among the components or within the individual components.
    What will be your plan and process in selecting basic and 
innovation research projects? Will there be a transparent 
process by which to prioritize basic research across components 
and within the components?
    Under Secretary Brothers. Yes. So--let me talk about some 
mechanisms that exist now, and how I think we can scale across 
the enterprise. So every year, S&T does a portfolio review. We 
call this our ``navigant'' review. In this review, we have a 
panel of experts, including S&T and from outside stakeholders, 
and we brief our programs to this panel. During this process, 
the panel weighs these projects according to a variety of 
parameters, including customer buy-in, technical feasibility, 
novel approach--these kind of metrics, or axes if you want to 
put it on a graph, okay?
    At the end of that, one of what I think significant scales 
they come up with is one that plots feasibility versus impact. 
Over the past few years, we have used this--or it has been used 
by--in previous--by the previous under secretary to figure out 
where, on this plot--you think about it, feasibility and 
horizontal axis impact on a vertical axis where the project 
should fall. How they should map. So if you think about the 
upper right part of that, what you find is that is gonna be the 
high-impact, high-feasibility projects. So it is more near-
term.
    That is where the projects have been focused recently. 
Listening to some of the opening statements here and my own 
belief of having a more balanced portfolio, I think it is 
important, as we go through that analytic process--that 
navigant, that portfolio review process--I think it is 
important to think about these other quadrants of that graph I 
was mentioning to have our product--our investments. So in 
answer to your question, I think it is important we go through 
this analytic process and look across those areas.
    Now, the Coast Guard is also using the same process. So 
this process can be scaled to beyond just S&T. This is 
something we can then use. The results of that process are then 
something that we can use as a way of not just understanding 
where our portfolio is, but trying to influence where the 
portfolio should go in the future.
    Now, there is another piece I want to mention, as well. We 
started this with Chairman Meehan's comments, my comments with 
Chairman Meehan. This has to do with how we are generating the 
capability gaps.
    What I would like to see is, where we actually have a model 
based on what I have seen in the industry. Where you have a 
central research facility, where you have a common--where you 
have a centralized resources of staff, of infrastructure, et 
cetera. Then these larger corporations also have research 
capabilities in the business areas. Or in our case, these would 
be our end-users, our components. So this could be DNDO, it 
could be Coast Guard. Now, what we do that--what the 
laboratories in industry that have been successful, what they 
do is they embed their staff into their business units.
    That gives their technical staff members the opportunity to 
understand the context in which they work. So it is not just 
designing something that an engineer thinks is useful. It is 
designing something that the actual end-user, the Customs 
Border Patrol Agent, thinks is useful. So that, and then we 
will have liaisons from the components to come back. We hope to 
actually pilot that starting in November.
    Mr. Payne. Okay. Thank you, Mr. Chairman. I am well over my 
time.
    So I will yield back.
    Mr. Meehan. Well, I thank the gentleman. If there is an 
important question that you want to either have one of our 
colleagues ask, or if we need to return to an issue that needs 
to be clarified, we will certainly work with that.
    At this point in time, let me turn it to my good friend and 
colleague, the gentleman from Indiana, Mr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman. Since my time--I have 
been here in Congress now almost 4 years, and I have been 
surprised--somewhat surprised about how a lot of GAO reports 
seem to be minimized by everyone, honestly. I have been a 
little concerned recently, where some in the administration 
have been overtly critical of the role the GAO serves on behalf 
of the American people. I would suggest that a fair critique of 
GAO reports is expected, however overt suggestions of political 
motivation should be avoided by all.
    With that said, Dr. Brothers, the GAO reported that the S&T 
does not know its total investment in R&D, and described the 
difficulty you have had in conducting basic Government audits 
for how taxpayer funds are being spent. The GAO's initial audit 
was completed 2 years ago. While DHS agreed with the findings 
and recommendations, it doesn't seem much has been done to fix 
the problem. This is where I am getting at not necessarily 
being minimized or ignored, but it just seems like GAO reports 
come and go and we don't do anything.
    So why is it so difficult to answer the simple question of 
how much is being spent on R&D? What efforts does S&T have 
under way to reliably track costs associated with R&D 
activities?
    Under Secretary Brothers. So in the beginning, I think this 
came out of the GAO report, was the first recommendation was 
defining R&D. So the first part of the problem has happened in 
the past. You know, in July we did release new--a definition of 
R&D. But in the past, we didn't have that definition. So that 
means different people that have different definitions of what 
research and development really is.
    Mr. Bucshon. Can I interrupt for a second?
    Under Secretary Brothers. Absolutely.
    Mr. Bucshon. It is amazing to me that after decades and 
decades of the Government looking at these things that the 
fundamental definition of what constitutes R&D is something 
that we don't have.
    Under Secretary Brothers. I understand. We do----
    Mr. Bucshon. I am not blaming you. I am just--that is just 
an editorial comment.
    Under Secretary Brothers. So I think, you know, based on 
OMB, based on DOD definitions, NASA definitions, as well, we 
have crafted our own definition of what R&D is. So we have used 
the same type of nomenclature--basic applied development--is 
then banded into different areas--6-1, 6-2, 6-3, et cetera, 
which allow us--which will allow us, going forward, to do a 
better job of understanding, from a data call perspective, who 
is doing what in R&D and where it lies.
    Can I bring up another piece, too? That is a----
    Mr. Bucshon. I will have one more question after you finish 
your answer to this.
    Under Secretary Brothers. Okay.
    Mr. Bucshon. So if you could give me the time to do that.
    Under Secretary Brothers. Speed it up? Okay. I would like 
to address this issue of overlap a little bit. Because when I 
was in DOD we sponsored a study. The study was looking at the 
DOD laboratories. It was looking at the DOD laboratories to see 
what kind of overlap there might be, whether innovative with 
respect to private industry, those kinds of things. It was also 
really interesting. Because what they showed was that there was 
this taxonomy of R&D, at one level.
    So maybe the level is--and I will make this quick--was 
wireless communications. Maybe found that a lot of the 
laboratories are doing wireless communications. But when the 
study was complete, and then you could say at that level there 
was a lot of overlap. What the study found, interesting enough, 
was when you broke it down to a high-enough level of fidelity 
they, indeed, weren't overlapped. There wasn't overlap. Because 
one lab might be doing a lot of work in protocols, one work 
might be doing a lot of work in, actually, the radio design 
itself.
    So part of the problem we have is the definition of R&D 
itself. But also the taxonomy that we are using to describe 
what the particular project is. So that becomes another 
problem, as well, and you have to break it down into higher 
fidelity. So I just want to say that.
    Mr. Bucshon. Sure. I mean, I think you have a unique 
opportunity, coming from DOD and now you are at DHS, to really 
try to help coordinate these two agencies. Along that lines, I 
am interested in what you might be able to do. For example, 
there are mobile surveillance assets that DOD uses in 
Afghanistan and other places that also may have a significant 
role in protecting our borders, for example. We don't want to 
reinvent the wheel here.
    There are a lot of things that are currently at DOD that 
probably can be used to protect us here in the homeland. 
Whether it is at our borders or other--or internal surveillance 
within our own country, where it is appropriate, to make sure 
that we don't--aren't attacked. Can you just comment on what 
you think you can do, having experience at both these agencies, 
and how you can help coordinate that? Maybe look at how we can 
use DOD assets for homeland security.
    Under Secretary Brothers. Yes, I appreciate that question. 
I have thought about this. I think right now there are 
mechanisms to allow us to do this. We have the capabilities 
development working group, which is DOD and DHS getting 
together to talk about potentially joint efforts, what we might 
be able to use from DOD. We also have something called the 
Mission Executive Council. That is made up of members of DHS, 
DOE, Office of Director of National Intelligence and--yes, I 
think that is about it. So we have got--and, plus, we have got 
the Committee on Homeland National Security, which is chaired 
by the White House, myself, and ASDRNE, which is essentially 
CTO of Department of Defense.
    So we have these mechanisms. I think--well, I talked about 
my priorities coming into the position--you know, the visions 
of strategy, that type of thing. My priorities going forward, 
starting out, are implementation. That is the first one. I 
think in order to implement the kind of programs we are talking 
about, these Apex programs, we have to do a good job of 
leveraging what our agency partners possess, as well. I think 
that is what you are getting at. I think we do have the 
mechanism to do that, but I think we have to do a better job. 
That is what I plan to do is align this.
    So if we have some number of Apex projects, some number of 
far-side that we are concentrating on, that has to be 
communicated to these interagency groups. We have to pull folks 
together to work on these important projects. So we actually 
have a critical mass.
    Mr. Bucshon. Yes, I think if we can get back--past the 
proprietary nature that some different agencies have, and also 
turf--you know, protecting your turf.
    Under Secretary Brothers. Yes, yes.
    Mr. Bucshon. You can really--you are in a unique position, 
being both--at both places to really make a difference.
    I yield back, Mr. Chairman.
    Mr. Meehan. I thank the gentleman.
    Now I recognize Mr. Lipinski, from Illinois.
    Mr. Lipinski. Thank you, Mr. Chairman. Over the past few 
years, DHS has eliminated much of the basic research in order 
to produce more deliverables. I am wondering, and this is sort-
of following up from what Mr. Payne was saying, Under Secretary 
Brothers, do you think that more work needs to be done on basic 
research? Where do you see the importance of basic research for 
the S&T Directorate at Homeland Security? Or do you see that 
this basic research should be coming from elsewhere? I just was 
wondering how important you think basic research is to--
directly to your mission.
    I know it is--we all know it is important, but how much has 
to be done, the basic research needs to be done, by you under 
the S&T Directorate?
    Under Secretary Brothers. So I think basic research is 
important. I think that we have a unique opportunity because we 
have nine Centers of Excellence. These Centers of Excellence 
are university-based, they have university researchers that can 
be focused on our priorities. Specific examples of where basic 
research is important is phenomenological research. So if we 
are starting to look at homemade explosives, and we need to 
understand what are different detection modalities and 
methodologies, that is where basic research can come in.
    So it is important that we engage our university partners, 
our Centers of Excellence, as well as outside universities in 
this kind of research, but with the context of where we are 
going. I think what I have seen in past roles has been that 
university research sometimes can lead to a paper, a 
publication. What we need is, we are to lead to a capability. 
But if we give them the--if we give a universe research--and we 
are actually doing this with our Office of University Programs 
right now. Where our Centers of Excellence are aligned with our 
goals.
    So I think, to answer your question, it is important. I 
think we do--we are doing it already right now. My second 
priority--so my first priority, going forward, is 
implementation. My second priority is alignment. That is part 
of the alignment priority right there is getting our 
universities more fundamentally aligned with where S&T is 
trying to go.
    Mr. Lipinski. Do you see any changes needed in the 
university centers, or just in general with the process that--
the whole process of having the centers? Do you think this is 
working well? I am not offering--I am not saying that it is 
not. I just want to know what your thoughts were on it.
    Under Secretary Brothers. Yes, yes. So, you know, it is 
interesting. During my confirmation hearing I had a number of 
briefings on that. I was immediately impressed with the 
competence of our Office of University Programs. I was 
impressed because I found that while it can be very difficult 
sometimes for a Government agency to work with a university 
because of the difference in time lines, because of the way 
they have structured the program, our Office of University 
Programs that is, I think we effectively and efficiently used 
these universities to get some good capabilities.
    Mr. Lipinski. Now, what about the--doing more to utilize 
the DOE National labs. Do you think--do you believe DHS takes 
adequate advantage of access to the DOE labs?
    Under Secretary Brothers. I think we take adequate 
advantage of access to DOE labs, which is in our authorization 
language. I think, again, with alignment we could do a better 
job with alignment. That is something I plan to do. But I think 
there is a lot of exchange with the DOE laboratories and that 
should continue. The DOE labs have unique capabilities that the 
homeland security enterprise needs. I think we have to continue 
to take advantage of that.
    Mr. Lipinski. Do you see any obstacles that we could work 
on eliminating? Are there any obstacles through your work with 
the DOE labs?
    Under Secretary Brothers. I don't know of any particular 
obstacles right now, but I appreciate the question.
    Mr. Lipinski. Okay. Well, as we move forward here, and I 
know there is a lot of work that needs to be done, the 
question, obviously, that continues to come up and has been 
talked about--you talked about it and you have answered a 
little bit in the questions--is the--determining and really 
getting a handle on, as the GAO said, a handle on the money 
that is spent on research by--in the S&T Directorates. I just 
want to say that I think it is important that we continue to 
work together on that, to do that. It is really critical that 
we do take advantage of the great resources we have in this 
country at universities and also at the DOE labs to help to do 
this research, both basic and applied research.
    So look forward to working with you on that, and I will 
yield back the balance of my time.
    Under Secretary Brothers. Thank you.
    Mr. Meehan. I thank the gentleman.
    Now recognize the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Gentlemen, thank you 
for joining us today.
    Dr. Brothers, given DHS S&T's relatively small budget and 
the problems GAO has found to date, how confident are you that 
DHS is producing the technologies that are most needed for 
homeland security?
    Under Secretary Brothers. I think we have the capability to 
do that. I think that some of the processes that were talked a 
little bit about this morning. The portfolio review, where we 
can actually get strategic alignment across not just S&T, but 
also the enterprise. I think we can do that. I think by having 
a--the Unity of Effort the Secretary is championing. I think 
that we can have much more effective and efficient acquisition 
programs. I think by having the types of relationships with the 
components we can generate solid capability gaps from which to 
derive our research investment portfolio. So I think we can do 
this. I think we have a capability, I think we have the 
workforce that can do this.
    Mr. Johnson. Okay, all right. Well, how do the--for both of 
you--how do the DHS components in S&T determine which of their 
technology needs can be bought off the shelf, and which require 
research and development? What is the process by which common 
needs across the components are evaluated, prioritized, and 
then passed to S&T for implementation? You can decide who goes 
first.
    Mr. Maurer. Thanks for the question. That is an issue that 
DHS has historically struggled with. Trying to determine the 
common needs of the Department, working across components, 
coming up with common requirements. We are encouraged by the 
fact that the Secretary has this new focus on Unity of Effort 
and is implementing different approaches to translating the 
strategic priorities of the Department into acquisition 
requirements as well as, hopefully, drive what R&D is going to 
do to fill capabilities gaps. We have had a high-risk area for 
a number of years for DHS management and this has been one of 
the areas where, frankly, DHS still has some ways to go, 
translating what they want to do into actual programs that meet 
cost and schedule milestones.
    Mr. Johnson. Okay.
    Under Secretary Brothers. So I think that we have something 
we call technology-foraging, where we have our staff members, 
our stakeholders understand what is out there in the world, so 
to speak. So, for example, our first responders group, they 
have an effort where they meet with first responders directly. 
They in a sense have a forum, where they meet with first 
responders and understand what their priorities are. I have a 
list right here of their priorities, of what they are. They go 
from situational awareness, safety, protection, these kinds of 
things.
    So I think that is a great example of how one of the 
organizations within S&T actually directly captures needs from 
the actual end-users and can translate those into programs. I 
think those are the kinds of ideas that have to be scaled 
across S&T as well as the Department, as well. So I think that 
is a case study of how it can work.
    Mr. Johnson. Well, speaking of the first responders, I 
assume that you are taking a lot of input from first responders 
to find out what they think they need to respond to the 
different types of threats and situations that they face. Is 
that----
    Under Secretary Brothers. That is absolutely correct. That 
is part of that forum that I was mentioned a few minutes ago. 
Where we get tremendous input from across the country from 
first responders. We bring them in to talk to us about what 
their needs are, and then we develop a prioritized list of what 
they say they need. So I think it is very effective. In fact, 
that is then being used to influence our first responder of the 
future Apex program. Where we are looking at, how can we use 
the current technology and emerging technology in wearables, 
ruggedize it, and really apply it to the first responder 
mission sets?
    Mr. Johnson. Okay. Well, Mr. Maurer, and you might have 
alluded to this. But I was wondering if you could expand on any 
recommendations that you might make to ensure that technology 
needs are properly vetted before S&T develops an R&D program to 
support it.
    Mr. Maurer. Yes, absolutely. I think we would really 
underscore a couple of things. One is it is important that they 
are developing a new strategy, a new strategic approach, going 
forward. Because I think it is time to update that. The last 
one was done in 2011. There has been a new Quadrennial Homeland 
Security Review to drive strategic priorities. We want to see 
that translated into how S&T does its line of business. So 
strategy is important.
    Tightening the coordination links between S&T and the 
operational components is absolutely critical. Whatever S&T 
works on, it is not going to be used in the real world unless 
there is that hand-off to the components. There are a lot of 
different forums that they are developing to enhance that and 
improve that. The closer they can work with eventual end-users 
the better off they are going to be.
    Mr. Johnson. Okay. Well, I thank you for your responses.
    Mr. Chairman, I yield back.
    Mr. Meehan. I thank the gentleman.
    The Chairman now recognizes the Ranking Member of the full 
Committee on Homeland Security.
    Mr. Thompson. Thank you, Mr. Chairman. Taking off from Mr. 
Payne and Mr. Johnson's comments, Dr. Brothers, it would be an 
understatement to say that the relationship with components and 
S&T has been anything but cordial. So how do you plan, in your 
new role at S&T, to bridge what some see as your lack of 
respect for S&T or just total disregard for the work you do? 
Take TSA, for example.
    Under Secretary Brothers. So, yes, glad you mentioned that. 
Because we are meeting regularly with TSA, both Administrator 
Pistole and with CTO, to discuss what their needs are. I really 
can report to you today that we are working hand-in-hand with 
TSA, reporting up into headquarters on our work addressing some 
emerging threats. So I think a lot of this has to do with 
relationship building. In the 4 months I have been there I have 
met with all the component heads, some of them more than one 
time, to try to develop that kind of relationship. Really, a 
lot of it is listening.
    I mean, part of science and technology is that you have 
smart engineers--and I saw this in industry--can come up with 
an idea. But because they don't have the context for their 
work, they don't have the relationship with the end-user, it is 
not relevant. It is just not relevant. It is an interesting 
thing, but it is not relevant. So our job, then, is to reach 
out and help them understand what the art of the possible is 
and we understand what their needs are, both near-term and 
long-term. I think we have started that. I think TSA is a great 
example. Because we really are working hand-in-hand with TSA 
right now.
    Mr. Thompson. So, Mr. Maurer, is this part of that hand-off 
you were referring to in your earlier comments?
    Mr. Maurer. Yes, absolutely. There needs to be the bridge 
between ideas and technology and approaches that are being 
researched within S&T and the operational components. You have 
scientists and engineers who are coming up with good ideas, 
developing new technologies, new softwares. That is all fine 
and good. But eventually, at some point, the hope is it is 
gonna be used in the real world to help secure the borders or 
secure the homeland, execute DHS' missions. For that to happen 
we have to have that bridge between S&T and the components.
    That is gonna take--that is, frankly, gonna take some time 
to work on. It is gonna include the high-level discussions that 
the under secretary talked about. It is gonna include staff-
level discussions so that the folks down in the trenches know 
what each other is--know what each other is working on. Even 
S&T there is gonna be a renewed focus and a renewed emphasis on 
filling capabilities gaps, developing bridges between filling 
those gaps and supporting major acquisition programs.
    Mr. Thompson. Let me add another component to that. If the 
process is cumbersome, then you really only get big players in 
the marketplace. Small, medium-sized businesses don't have the 
capacity in terms of resources to stay in the marketplace in 
the R&D mode rather than operational. How do you plan, Mr. 
Brothers, to close that gap so small business can compete with 
new ideas just like big businesses?
    Under Secretary Brothers. So it is my belief that small--
that a lot of some of the most innovative and creative 
solutions can come from small business. I believe that. I have 
seen that happen. However, some of the small businesses aren't 
familiar with the way that the Federal Government does 
business. I think it is important that we reach out in 
different ways, not just the standard ways that we do things. 
One way to do this is through reaching out via social media. I 
think an example of that where we have seen tremendous response 
has been just sending out these visionary goals for comment and 
review.
    In the week we have had it, we have had about 1,500 people 
sign up for the website. We have had comments that aren't just 
about the visionary goals. They are comments about science and 
technology across different capabilities that the community 
thinks we should think about. What this has let me know is that 
there is a conversation, a National conversation, about S&T and 
Homeland Security that needs to take place. So we plan to 
follow up on that.
    So let me get back directly to your question. Those are the 
types--that is the type of media outreach that we--that can 
engage the small business community. I think that is what we 
plan to keep doing. Now, the next question is, well, how do we 
get to them? So that is where you can talk about our other 
transactions authority. So right now, we have another 
transaction authority that is appropriated every year. What 
would be helpful is to have that permanent with us. But it is 
those kinds of--so it is that kind of outreach, as well as the 
mechanisms for working with small businesses, that can be very 
helpful. That is what I hope to push forward on.
    Mr. Thompson. Well--and I think, Dr. Brothers, if you can 
get it out of the social media context and get it into an 
operational context. Those small businesses say we get invited 
to sessions all the time, but we can't translate the fluff of 
people saying we are open for business from reality. The 
reality is do I really have a chance to show my bright ideas, 
or is this just another check-the-box kind-of event? I think--
and I don't really look for an answer, but I want you to think 
about, as you try to broaden that participation that there are 
really some actionable things at the end of it rather than just 
1,500 social media contacts.
    Under Secretary Brothers. I appreciate that feedback. I 
think one of the things--I am gonna take a second to comment. I 
appreciate the feedback a lot because I am trying to understand 
ways to do better outreach to that community. I think we have 
been thinking about having industry days. The Department of 
Defense has days where they actually try to do match--
matchmaking between smaller businesses and larger businesses. 
That may be a model. But I do appreciate the feedback because I 
think we need to think hard about how to not just get folks 
interested in what we are doing, but engage them in a 
meaningful way, like you are getting at.
    Mr. Thompson. Thank you very much. If you want to pursue it 
at some point, I would love to continue the discussion.
    Under Secretary Brothers. Thank you, appreciate it.
    Mr. Thompson. I yield back, Mr. Chairman.
    Mr. Meehan. Thank you, Chairman.
    The Chairman now recognizes Mr. Collins for his 
questioning.
    Mr. Collins. Thank you, Mr. Chairman. Dr. Brothers, I am 
just curious. I mean, a lot of us were worried about every 
dollar we spend, and if there is overlap that is probably, 
there is some level of waste. So to me, an example is always 
one of the best places to try to figure out what is going on. 
If you look at DARPA and maybe in the bioterrorism world, and 
then you look at DHS and your operation--and even pick one 
thing like anthrax that has been going on now almost 15 years--
how does the department--DHS and your department overlap with 
DARPA on something like a bioterrorism threat like anthrax? 
Is--should there be two departments involved in something like 
that?
    Under Secretary Brothers. I think you--it would--the answer 
depends. It depends on specifically what they are doing. I 
think that goes back to what I was mentioning earlier about the 
study that we had at DOD that looked at how different 
laboratories were doing things that seemed like they were the 
same. When you reach down in higher fidelity and actually look 
at it, it is not the same. So one of the things that you can 
think about is there may be different ways of solving the same 
problem. Some may be shorter-term, some may be more effective 
than others, some may be the 80 percent solution, some may be 
going for the 100 percent solution.
    So when you start looking at a different--an effort, for 
example, in bioterrorism, you have to look very carefully along 
all these different dimensions of the effort. So I think there 
is space for different agencies to work in that domain. I think 
it is important that there is some--there is visibility between 
the agencies, and we--and DARPA, specifically, we do have that 
kind of visibility. But I think that it is important, and I 
think there is a space for different agencies in those kind of 
areas.
    Mr. Collins. So you wouldn't think if one agency, DOD, had 
responsibility for something like bioterrorism, I would assume 
that they would pursue all these different avenues. They don't 
need another agency maybe duplicating people thinking through 
the same problem. I think, in the private sector, we would 
never have a case where you knowingly had two departments 
working on the same thing and think that is a good thing.
    Under Secretary Brothers. If we take another example, take 
cyber. So we consider cyber, where as it is defined the DOD and 
DHS have somewhat different areas. We are still doing research 
in cyber and we are still collaborating in cyber. But our 
spaces are, while overlapping--they are overlapping--while 
overlapping, they are distinct in some ways. So it is important 
to understand that and to work in those spaces like that.
    Mr. Collins. So let's go back at anthrax for a second. So 
after 15 years what would--do you think this country is ready 
if there was an anthrax attack tomorrow?
    Under Secretary Brothers. I guess I would have to say it 
depends on the scope. I would also have to say that to get into 
more details about this I would like to follow up with you in 
that specific threat area to have a more detailed conversation.
    Mr. Collins. Well, if you were talking about scope. 
Somebody weaponizes anthrax, puts it into an air conditioning 
system, blows it into a shopping mall. So there is no thought 
that anyone is exposed. So not unlike the post office, where 
you could use Cipro as a prophylactic to treat it before it 
became symptomatic. But--so now you got a shopping center. It 
blew through there, no one had any idea, now they are post-
symptomatic. I mean, best I know it is still 95 percent death.
    Under Secretary Brothers. Like I said, I would like to come 
back to you on that discussion. Appreciate that.
    Mr. Collins. I would----
    Under Secretary Brothers. Okay.
    Mr. Collins [continuing]. As well. including some other 
things, like Ebola now, the bird flu, SARS. I am--I think in 
the bioterrorism area, DARPA is very, very involved. I wasn't, 
until I read this, didn't even realize that the Department of 
Homeland Security had involvement in that.
    Under Secretary Brothers. Yes.
    Mr. Collins. Yes, I would like to follow up.
    Under Secretary Brothers. Please. Thank you. Appreciate 
that.
    Mr. Meehan. I am assuming you yield back. I don't want to 
jump into your space, Mr. Collins, but I thank you for your 
questioning.
    The Chairman now recognizes Ms. Kelly from Illinois. Thank 
you, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman. Good morning.
    Under Secretary Brothers. Good morning.
    Ms. Kelly. We have seen, in multiple GAO reports--and have 
heard from security and technical experts as well as other 
outside stakeholders that DHS lacks a strategic plan for the 
agency's research investments. This has been going on for some 
time. So we have listened to a lot of things that you said you 
are doing or want to do. What is your biggest sign that you are 
on the right track? Also what are obstacles that you are 
concerned about? Both of you can answer that.
    Under Secretary Brothers. Sure. I think the signs I am on 
the right track, the enthusiasm of the workforce, the 
enthusiasm of components--so--I have got a lot of response on 
the visionary goals in the components. I have got a lot of 
interest in the components on having this embedding program. 
You know, what I am interested in doing is having kind of a 
virtual IPT. I think in the past, in terms of generating 
capability gaps, there have been IPTs that have been formed. I 
would like to do an embedded IPT, if you will. There has been a 
lot of enthusiasm for that.
    I have regular meetings with headquarters, with the deputy 
secretary, with the component heads. I think we are getting--we 
are involved with the Senior Leadership Council. So with the 
Secretary's Unity of Effort, he has put together some 
structure. The Senior Leadership Council, a deputies management 
advisory group, and a joint requirements council. We have a 
seat on all of those. So I think because of this Unity of 
Effort initiative of the Secretary's, and because of 
relationships we are building, I think we can--I think we will 
be successful.
    Mr. Maurer. Yes. I think in terms of positive notes on the 
progress that the S&T is making, I think the fact that the 
Department now has a definition for R&D is a good first step. 
It shows they are being responsive to some of the 
recommendations from our prior reports. The development of a 
new strategy is also a positive step. The Secretary's approach 
for a Unity of Effort which tries to align strategic priorities 
down through the organization and tighten the linkage between 
the components and the various operational units in the DHS, 
those are all positive things.
    In terms of challenges, there are a number of challenges. I 
think first and foremost is the fact that I think what has 
developed over the course of a number of years is that the 
components don't necessarily think of S&T as their first-stop 
shopping center for meeting their needs, their mission needs. 
That is a challenge that is gonna have to be overcome. I think 
the morale challenge within S&T is a significant one. You know, 
299 out of 300 is not good. That is something that is gonna 
have to be addressed as part of the overall effort to develop a 
new strategic approach.
    I think the other challenge is the fact that the S&T 
Directorate is being pulled in a number of different 
directions. They have a number of different initiatives, a 
number of different priorities. Trying to address a number of 
different threats with resources that are a little over a 
billion dollars a year. A much smaller subset of that is 
actually discretionary in the sense that they have a lot of 
flexibility in where it goes. So trying to figure out the areas 
where they can add the most value, while staying within the 
confines of constrained budget realities is also gonna be a 
major challenge going forward.
    Ms. Kelly. Any comment on----
    Under Secretary Brothers. I can comment on that because--I 
am glad you mentioned the workforce. Because that is--I was--I 
should mention that. What I have been doing recently has been 
simple steps. I have been walking around a lot and talking to 
people. We are gonna do a formal root cause analysis. We should 
hopefully have that on contract shortly to get that done. But I 
think in the interim, walking around talking to people, 
understanding what some of the concerns have been in the past, 
has been helpful. We have been trying to do more of empowering 
our workforce in the decision-making process.
    Given--giving more visibility in how decisions are made and 
why decisions are made. I think all that is important. But I do 
have to agree. That is a challenge. I think it is something 
that we are very concerned about and putting some--a lot of 
time into going forward. The other issue of the--you know, many 
different projects going different ways. We are trying to 
address that with this consolidation I mentioned earlier in the 
Apex projects, and trying to have more focus. Again, that is a 
priority going forward is--the second priority is alignment.
    You know, aligning--you know, this--you know, it is about 
aligning not just our HSARPA investment programs, not just the 
first responders group investment programs. But it is also the 
work we do in our small business innovator research program. It 
is aligning what we are doing in our Centers of Excellence. So 
it is all of this. It is our--alignment we do in our 
laboratories. It is aligning what we do in our investments with 
the Department of Energy laboratories that we were talking 
about earlier.
    So I think that that is all gonna be challenged. It is all 
about the people. It is aligning people in your goals--in your 
end goals. That, by itself, is a large challenge. But that is 
what we have to do if we are gonna get the most out of S&T in 
our investments.
    Ms. Kelly. Thank you.
    Under Secretary Brothers. Thank you.
    Ms. Kelly. I yield back.
    Mr. Meehan. Thank you. Thanks, Ms. Kelly.
    The Chairman now recognizes Mr. Hultgren from Illinois. I 
knew that.
    Mr. Hultgren. Thanks, Mr. Chairman. Thank you, Mr. 
Chairman. Really appreciate the witnesses for being here. This 
is an important, timely discussion to be having so I really do 
appreciate it. I think this is important for us to be having 
this joint hearing today. So thank you so much for being here.
    Border security certainly is becoming an increasingly 
difficult problem to deal with. I believe our ability to deploy 
better technologies to that effort works as, really, a force 
multiplier that keeps not only our Nation, but also our boots 
on the ground, more safe. It has been good to receive your 
testimony as we continue to ensure that taxpayer dollars are 
spent wisely with a clear strategy and set goal that must be 
accomplished.
    Dr. Brothers, I wanted to address my first question to you. 
How does DHS define success for research and development 
programs?
    Under Secretary Brothers. So, first I want--let me make a 
comment. That one of the things I want to institute more of is 
fast failure. So I think one thing we have to understand as we 
talk about having a balanced portfolio that goes from, you 
know, low risk to higher right, with larger potential impact 
is, there has to be acknowledgment that there will be failure. 
So--however, the way to manage that is to fail quickly. So that 
means, in the conversations earlier were about metrics, that 
means having appropriate metrics for these programs so you can 
determine when these programs should fail.
    Now, in terms of success it depends on where you are in 
that research spectrum. Because if you are doing basic research 
you are probably not gonna say success is transitioning that 
basic research directly to the component. But I think if you 
look across the breadth of our research responsibilities, which 
go from basic research all the way up to acquisition support, I 
think success is that. It is transitioning a meaningful 
capability to our end-users.
    Mr. Hultgren. Really, following up on that and, again, Dr. 
Brothers and also Mr. Maurer, what is the current system of 
transfer technology from the research and development stage to 
implementation? I wondered how long it typically takes to 
deploy a new technology? Dr. Brothers, I will start with you 
and then Mr. Maurer.
    Under Secretary Brothers. Yes, sure. So that is another 
``it depends.'' Because some of technologies--for example first 
responder technologies--which the first responder group which 
works more near-term, more integrating existing commercial 
technologies, that is gonna be shorter-term. That might be in a 
period of 18 months or so, something like that. However, some 
of the more fundamentally research-based efforts, like these 
maybe H, homemade, explosives detection--where you are actually 
going from new modalities to actual equipment to actual 
deployment in an airport--that could take years.
    Because that--because part of the transition isn't just 
understanding, does the science indeed work? It is not just 
have I produced a prototype that can be tested effectively. It 
is also by going through all the qualification/certification 
testing and all that, as well as training of the end-users. So 
while the front-end research can take some number of years, it 
can take a significant amount of time to do qualification 
testing and training, as well. So that can be years.
    Mr. Hultgren. Mr. Maurer, any thoughts?
    Mr. Maurer. Yes, absolutely. It is not a quick process to 
translate ideas into real-life devices that are in the hands of 
end-users. I agree with everything that Dr. Brothers mentioned. 
I want to emphasize in particular, when you are thinking about 
real-world deployment it is not just the technology itself. It 
is also the training, it is the support, it is the maintenance. 
There are a lot of things that are involved in turning an idea 
into something that is being used to secure the homeland.
    Mr. Hultgren. I understand it is not an easy process, but 
it also is an important process. You have to make sure that if 
there are bureaucratic hurdles that are slowing down the 
process to getting something that literally could save lives, 
we have got to make sure that that gets done and we address 
those things, as well. Certainly, we want to do it the right 
way.
    Under Secretary Brothers. Sure.
    Mr. Hultgren. But I also get frustrated when things take 
longer than they should. That is our goal, that is our hope. 
Dr. Brothers, in years past concerns were expressed that 
sometimes the Department allows for security needs to be 
defined by end-users who do not necessarily incorporate 
technical or economic feasibility. How can you ensure that the 
research enterprise is somewhat insulated from predetermined 
outcomes allowing for the department--development, excuse me, 
of transformational technologies that we can't even envision 
today? That respond to threats that we aren't aware of today? 
How can we get innovative solutions instead of just the next 
gadget?
    Under Secretary Brothers. So I think the reason why I 
started out with my discussion of requirements versus 
capability gaps, I think is my emphasis to make sure we have 
the right lexicon for talking about it. Because I think we--
because of the Unity of Effort initiative, which has the Joint 
Requirements Council on it, which were the principles from the 
components and headquarters components--including S&T, MMPD, et 
cetera--sit on, that is where the acquisition decisions are 
made. So that actually has a component in it for developing 
requirements--we sit on that board--for doing system analysis. 
We provide staff for that, as well.
    So from the acquisition perspective, the way the Secretary 
has structured the organization now, with this Joint 
Requirements Council, we are right there at the table to work 
with the components in defining requirements and defining the 
systems engineering piece of the acquisition process. As well 
as doing the operational test evaluation. Along with that, it 
turns out that a lot of the tests in programs is in the early 
parts of it. That is something we might want to get involved 
in, as well. Currently, we are not as involved. We might want 
to get involved in that, as well.
    Now let's go to the other part of the question. That is the 
disruptive technologies, the capabilities that you were talking 
about a moment ago. That is back to capabilities part and 
capability gaps part. I think, with this embedded IPT that I 
was talking about earlier, that will help us get to those needs 
that aren't colored by, hey, I just want, you know, the next 
thing like this. So I think by having the right lexicon by 
talking about requirements and capability gaps, having a 
willingness to accept risk from high--from potentially 
disruptive programs, I think we can make the difference known.
    Mr. Hultgren. Thank you. I want to thank my Chairman and my 
other Chairman. Larry, thank you.
    Appreciate this.
    Mr. Meehan. Thank you, Mr. Hultgren. Thanks for being here.
    We have gone through a lot. I have a--just one pointed 
question that I want to ask, and then if any other panelists 
has a specific follow-up question. You have talked a lot today 
about your work within the agency, so to speak, and the various 
components. We have heard from the Ranking Member about--how 
should I put it--competition within there that sometimes you 
have to ride over. So, you know, how do you discipline the 
organization to prevent these things?
    You talk about sort-of the carrot approach, where you are 
trying to get people together and talk. But how do you assure 
that there is some kind of resolution of these competitions so 
we really use the focus to get to the things that matter the 
most? At the same time, how does the agency collaborate with 
the private sector? I think about the issue of cyber, where the 
thing changes by the day.
    So research is being done at some of the most sophisticated 
places because you have got the Googles of the world, there and 
the Defense Department agencies, like McDonald Douglas or 
others that are already at the cutting edge protecting their--
how do you collaborate with them to assure that your own house 
isn't fighting among itself? Then that what you are doing is 
working not in competition with the private sector, which may 
be ahead of where we are?
    Under Secretary Brothers. I think cyber is a great example 
of the concern that you raise. I think we have done already--
reached out to the Googles, et cetera of the world to try to 
understand, in this particular space, what we can do to try to 
bring together capabilities. I think it is important to reach 
out not just to small companies, as well. There is an awful lot 
of work going on in the small company space that we can 
leverage. But it is hard.
    I mean, this is not an easy thing to do. But we are working 
right now, through our advisory, our Homeland Security Science 
and Advisory Committee, our HSSTAC. We are restructuring that 
to be both technical advisory as well as management strategic 
advisors. So we are putting--we are re-staffing that so that we 
can have the kinds of advisory----
    Mr. Meehan. Do you have private-sector members on that, as 
well?
    Under Secretary Brothers. We are working to get that, yes. 
Yes.
    Mr. Meehan. You are looking at it, or you----
    Under Secretary Brothers. We are looking at that. We are 
looking at that right now, yes. So that is how we are trying to 
get that advice. Because, particularly, cyber is such a fast-
moving field, as you state, that it is important that we stay 
in touch with this ever-increasing body of work going on. There 
was a keynote speech at--one of the keynote speeches at the 
recent Black Hat Symposium, the cyber symposium, the speaker 
was talking about how it is almost impossible to be broad in 
cyber any longer. It is a--you know, now, in order to get ahead 
you have to be in a specific area because it is moving that 
fast. No one person can get their arms around the whole space. 
So that is why we have to reach out to our resources to do 
that.
    The first question you asked, which had to do with, how do 
we influence? You mentioned----
    Mr. Meehan. Well, you--I called it ``discipline influence'' 
that may be the same.
    Under Secretary Brothers. I was trying to use the word 
``influence''?
    [Laughter.]
    Mr. Meehan. Yes, I like that terminology, so long as the 
result is the same.
    Under Secretary Brothers. I think what I have learned from 
both working in industry, we have a large corporation that has 
different equities. So you have a large corporation where there 
are different products, product lines, but there might be 
common technologies that enable that. I think it is important 
that we stress why we are important. Because it is hard for--it 
is hard when you don't control someone else's budget, or 
people, to really discipline them. The discipline comes, I 
think, from saying--from being clear of why we are important. I 
think we are doing a better job of that already.
    But I think we can do a better job of that. I think that is 
what we are gonna try to do. I know that is what we are gonna 
try to do.
    Mr. Meehan. Well, I wish you luck with that effort because 
you know how critically important it is to make sure that the 
resources are focused in the most effective manner and not turf 
protection.
    The gentleman now from New Jersey has some questions.
    Mr. Payne. Thank you, Mr. Chairman. Let's see. Under 
Secretary Brothers, I am here at the behest of the Ranking 
Member, Yvette Clarke, but I am the Ranking Member on Emergency 
Preparedness, Response, and Communications. While I have you 
here, I figured I would go down that road a bit. The BioWatch 
program, we have been using Gen-2 for quite some time, and Gen-
3 was in development but has been scuttled after millions and 
millions of dollars of research into the next generation.
    Very interested in what your plans are in terms of the next 
steps, now that we are back to go and starting over. The 
relationship that you have with OHA which, apparently from what 
I am understanding, issues there--in the two coming together.
    Under Secretary Brothers. I think--in the 4 months that I 
have been there, I think I get along pretty well with OHA, 
actually.
    Mr. Payne. So the relationship, you think, is----
    Under Secretary Brothers. I think it is. I think OHA would 
agree. In fact, I know they would, they have said this. So I 
think the relationship is a lot better. We are also--one of our 
Apex programs will be in this space. I am trying to go--we have 
a chance to go on for more signature-based, phenomenally-based, 
the same kind of thing that has been going in the cyber 
community. Kind-of taking lessons learned from other 
communities.
    Mr. Payne. Right.
    Under Secretary Brothers. But, yes. So we have not fully 
defined that yet, but we will--we are in the process of doing 
that.
    Mr. Payne. I really think it is very important to move 
forward on that space, and finding a solution to the next 
generation of, you know, what could potentially be a 
catastrophic issue if----
    Under Secretary Brothers. I absolutely agree with that.
    Mr. Payne. Thank you, Mr. Chairman.
    I yield back.
    Under Secretary Brothers. Thank you.
    Mr. Meehan. Any other Members have a question that they 
would like to ask, at this point? Okay.
    Well, hearing none, I want to thank you--both of the 
panelists--not only for your testimony today, but for your 
preparation and written materials. Under Secretary, I thank you 
for your willingness to step into this space. You have an 
important challenge ahead, and we appreciate the difficulty of 
making the system work, the trains run on time, so to speak. 
But it is--the value of that effort reflects directly on the 
importance of the responsibility we have to protect the 
homeland. I wish you the best of luck in that.
    Mr. Maurer, thank you for your continuing oversight and 
probing and finding the space, so to speak, for the mortar to 
fill.
    So I want to thank you for your testimony, and the Members 
for their questions. The committee may have some additional 
questions for the witnesses, and we ask if they are submitted 
to you that you respond in writing.
    Without objection, this subcommittee stands adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Patrick Meehan and Chairman Larry Bucshon for 
                           Reginald Brothers
    Question 1a. There has been quite a bit of discussion about Weapons 
of Mass Destruction (WMD) organizations across the U.S. Government, 
including DHS, DOD, and the IC (intelligence community). How would you 
define WMD? In other words, does it include chemical, biological, 
radiological, nuclear, and explosives? Would you also include cyber? 
Anything else?
    Given that definition of WMD, from a scientific and technical 
perspective, what would you say is common to all the threats? 
Conversely, from a scientific and technical perspective, what would you 
say is different or unique?
    Question 1b. In the Department, have you engaged in this type of 
discussion to develop better R&D and operational strategies to address 
these threats?
    Answer. The Department of Homeland Security Lexicon defines WMD as 
``weapons capable of a high order of destruction and/or of being used 
in such a manner as to destroy large numbers of people or an amount of 
property.'' Even given this broad definition, there is a robust policy 
debate surrounding what should or should not be labeled as WMD. 
Traditionally, WMD describe chemical, biological, nuclear, and 
radiological weapons. All of these types of weapons have international 
treaties limiting their development and use, and much of the current 
debate focuses on potential disruption of these treaties should WMD be 
redefined to include explosives and/or cyber weapons. On the other 
side, there are arguments that WMD ought to be defined by their extreme 
level of disruption and that explosives and cyber weapons among others 
are justifiably considered WMD.
    From a scientific and technical perspective, the differences for 
each of these threats (including cyber and explosives) include their 
specific origins and effects and corresponding requirements for threat-
specialized technology and processes from initial detection through 
response and recovery. Regardless of whether cyber or explosives 
attacks are formally labeled as WMD, however, they are a priority for 
the Department and resourced accordingly both within the Directorate 
and DHS as a whole.
    WMD and WMD-like events will all challenge the Homeland Security 
Enterprise's ability to generate and deliver actionable information so 
that senior decision makers and emergency managers can mitigate, to the 
extent possible, or neutralize destruction, disruption, and loss of 
life. At S&T and in the Department, we focus on both threat-specific 
technologies and on development of analytic tools, training aids, and 
decision-making aids that strengthen response across all WMD and WMD-
like events. These types of threat-agnostic tools are reflected in 
S&T's recently-finalized visionary goals and in several of our Apex \1\ 
and Engine projects. More broadly, the Department is concerned with all 
nefarious use of the causative agents and tends to use the label 
``CBRN'' (chemical, biological, radiological, and nuclear) to capture 
them in a way that does not depend on the assumed scale of the attack.
---------------------------------------------------------------------------
    \1\ Apex projects are cross-cutting, multi-disciplinary efforts 
requested by DHS components that are high-priority, high-value, and 
short turn-around in nature. They are intended to solve problems of 
strategic operational importance identified by a component leader.
---------------------------------------------------------------------------
    As part of the Secretary's Unity of Effort initiative, the 
Department continues to explore avenues to empower DHS components to 
effectively execute their operations. S&T, the Office of Health 
Affairs, the Domestic Nuclear Detection Office, and the rest of the 
Department will continue to work together to develop better R&D and 
operational strategies to address chemical, biological, radiological, 
and nuclear threats.
    Question 2a. According to authorities given to you in the Homeland 
Security Act of 2002, you have the responsibility for ``establishing 
and administering the primary research and development activities for 
the Department.''
    How is this being accomplished? Should other components (other than 
DNDO & Coast Guard which are already authorized in statute) be allowed 
to conduct their own R&D? How are you encouraging other components to 
work with S&T?
    Answer. S&T is the primary provider of R&D for the Department. 
There are clear delineations between S&T, DNDO, and Coast Guard's 
missions, and DNDO and the Coast Guard also have clear authority to 
conduct R&D.
    As part of original authorizing language and in response to 
subsequent Congressional requests, earlier this year, S&T finalized its 
plan for implementing the definition of R&D found in Office of 
Management and Budget Circular A-11. This mapping of the definition to 
DHS's project system variables also aligns with the Department of 
Defense designations tailored to DHS. It was signed by the Secretary as 
an annex to S&T's delegation. The definition describes several areas of 
later-stage development rightfully under the purview of operational 
components. These include, among others, validation and demonstration; 
improving on research prototypes; integration into systems and 
subsystems; addressing manufacturing, producibility, and sustainability 
needs; and independent operational test and evaluation. S&T cannot and 
should not take away responsibility for this stage of development from 
components. S&T provides assistance in these areas only when 
appropriate and when requested by operational partners.
    S&T's impact is tied to positive relationships with operational 
components and S&T's image as an objective and trusted partner. S&T 
uses numerous formal and informal mechanisms to engage with components 
on R&D projects from identification of capability gaps, through project 
execution, all the way to transition. Some programs, like our Apexes, 
include formalized dialogue at the highest levels between S&T and our 
component partners. Other programs rely principally upon coordination 
at the program manager and Division leadership levels with approval 
from respective senior leaders. S&T has strong existing relationships 
with operators across the Homeland Security Enterprise, and we 
continuously work to maintain and strengthen these relationships and to 
find new opportunities and new potential work partners.
    Question 2b. What specifically is DHS S&T doing to combat the cyber 
threat? Is S&T collaborating with NPPD to define a research agenda?
    Answer. S&T invests in civilian and law enforcement-focused 
cybersecurity R&D solutions for the Department, U.S. critical 
infrastructure, and the security of the internet as a whole. S&T's 
cybersecurity R&D execution model encompasses the entire R&D life cycle 
from capability gaps gathering to program management of R&D work and, 
finally, to management of post-R&D technology transfer to ensure 
developed solutions have a positive impact on operations. S&T's work 
has improved the core infrastructure of the internet through efforts to 
secure the internet's Domain Name System and routing infrastructures. 
Since 2003, S&T has had more than 35 successful cybersecurity R&D 
transitions in areas such as malware analysis, anti-phishing 
technologies, data visualization, open-source intrusion prevention, 
secure USB devices, and GPS forensic analysis tools for law 
enforcement. Beyond the development of technologies, capabilities and 
standards, S&T's cybersecurity R&D work also contributes to the 
education and development of the cybersecurity workforce through 
activities such as sponsorship of cybersecurity competitions at the 
high school and collegiate levels (e.g., the National Collegiate Cyber 
Defense Competition).
    S&T takes a collaborative approach to defining and executing its 
cybersecurity R&D agenda working with academia; DHS components (e.g., 
National Protection and Programs Directorate (NPPD), United States 
Secret Service (USSS), and U.S. Immigration and Customs Enforcement; 
Federal, State, and local government; private-sector partners (e.g., 
financial, energy); end-users; and numerous international partners. 
NPPD in particular was a key contributor to the development of 
requirements for a large-scale Broad Agency Announcement research 
solicitation that S&T issued in 2011, of which the majority of the 
resulting projects are completing in fiscal year 2015. The NPPD Office 
of Cybersecurity and Communications (CS&C) provided requirements for 
the solicitation's Software Assurance topic area, and the U.S. Computer 
Emergency Readiness Team provided requirements for the solicitation's 
Modeling of Internet Attacks, Network Mapping and Measurement, and 
Incident Response Communities topics. While developing a Cybersecurity 
R&D Strategy in 2013, S&T received input from multiple Government 
partners both from inside DHS (e.g., NPPD CS&C, USSS, Chief Information 
Security Officer) and outside (e.g., the White House, General Services 
Administration, Department of the Treasury, and Department of Energy) 
of DHS. Additional recent R&D requirements have come from the 
Comprehensive National Cybersecurity Initiative, the Federal 
Cybersecurity R&D Strategic Plan, and the DHS Blueprint for a Secure 
Cyber Future.
    Question 2c. In times of declining budgets, how is S&T balancing 
the pressure to have short-term technology impact versus the need to 
invest in long-term technology solutions?
    Answer. There is a natural and sometimes necessary temptation to 
resource incremental operational capabilities ahead of higher-risk, 
longer-term investments that are potentially much more innovative and 
beneficial. S&T recognizes the delicate balance between satisfying 
near-term requirements and keeping longer-term perspective and will 
continue to work with our operational partners to invest appropriately.
    Following the steep decline in S&T's R&D appropriation from fiscal 
years 2010 to 2012, S&T was forced to make difficult decisions. Out of 
necessity, this included shifting the R&D portfolio toward less risky 
investments on shorter time lines that, as a tradeoff, were also 
potentially less innovative solutions. Moving forward, in response to 
feedback from our operational partners and homeland security 
stakeholders, S&T is pushing its R&D portfolio to be more aggressive 
with room for riskier investments that might yield revolutionary 
advances. To this end, S&T has made strategic decisions to generate 
visionary goals for the organization, expand Apex programs, and 
implement twice-per-year prioritization of its Research, Development, 
and Innovation (RD&I) portfolio.
    S&T's long-term, visionary goals will serve as 30-year time line 
North Stars for the organization:
  <bullet> Screening at Speed.--Security That Matches the Pace of Life
  <bullet> A Trusted Cyber Future.--Protecting Privacy, Commerce, and 
        Community
  <bullet> Enable the Decision Maker.--Actionable Information at the 
        Speed of Thought
  <bullet> Responder of the Future.--Protected, Connected, and Fully 
        Aware
  <bullet> Resilient Communities.--Disaster-Proofing Society.
    The goals strive for previously-unachieved capabilities or 
significantly lower-cost equivalents to existing capabilities. They 
will help orient our organization and inspire stakeholders, including 
operators, end-users, and performers in industry and academia, to focus 
on potential leap-ahead capabilities.
    These visionary goals will be supported by Apex programs. S&T's 
existing Apex programs have been very successful. The core of the 
original Apex structure will remain--these will still be cross-cutting, 
multi-disciplinary efforts intended to solve problems of strategic 
operational importance--but, so that S&T's R&D portfolio is more 
balanced between near- and long-term outcomes, the programs will apply 
to a wider portion of the portfolio and operate on a 5-year time line, 
with interim deliverables planned in 2 to 3 years. To further amplify 
the effectiveness of these projects, S&T's priorities moving forward 
include better alignment of S&T resources like our Small Business 
Innovation Research awards and university-based Centers of Excellence 
and re-integration of basic scientific research that can be foundation 
for cutting-edge homeland security solutions.
    Finally, prioritization of the R&D portfolio ensures funding of the 
highest-priority projects and gives an opportunity to balance the 
portfolio between long-term visions and short-term solutions. 
Continuous balancing ensures that S&T's investments will have the 
greatest impact in an era of declining budgets.
    Question 2d. How does DHS strategically utilize and leverage 
expertise at the university and National laboratories?
    Answer. Part of aligning all of S&T's resources moving forward will 
be ensuring we take advantage of the full spectrum of resources across 
what I refer to as the S&T Ecosystem, which is the broad network of 
technical expertise inside and outside of Government that can be 
brought to bear for virtually any issue operators face. Within this 
ecosystem, certain performers are particularly suited to certain needs. 
Universities and National Laboratories including S&T's internal 
laboratory network, with deep wells of expertise and investments in 
basic scientific research, are a critical part of the S&T Ecosystem.
    The Department of Energy (DOE) National Laboratory Complex is the 
cornerstone of an integrated network of laboratory capabilities that 
support the S&T and DHS missions. The National labs provide multi-
disciplinary, world-renowned capabilities that span all scientific and 
engineering disciplines. These capabilities provide solutions to S&T's 
and the DHS components' long-term technology challenges. In fiscal year 
2013, DHS invested $262.7 million into the DOE labs to leverage these 
capabilities. The laboratories provide sustained research and 
development that support short- and long-term mission objectives. The 
Department's mission areas span a broad suite of scientific and 
technology disciplines, and National laboratories are adept at 
deploying well-integrated, interdisciplinary teams for their execution. 
Cooperation between S&T and DOE ranges from long-term capability 
planning such as at the Mission Executive Council to shorter-term 
tasking such as technology foraging to understand the current state of 
relevant technologies and laboratory capabilities. The labs' status as 
Federally-Funded Research and Development Centers permit the two 
parties to work outside the traditional competitive contractor 
framework for specialized strategic engagement.
    In addition to DOE National laboratories, S&T manages five 
laboratories that provide strategic capabilities within the homeland 
security R&D portfolio including in biodefense, chemical security, 
transportation security, and first responders. These laboratories 
include the Chemical Security Analysis Center, providing chemical 
threat characterization and identification; the National Biodefense 
Analysis and Countermeasures Center, providing BSL-4 capability and 
forensic analysis and characterization; the National Urban Security 
Technology Laboratory, providing test and evaluation to first responder 
technologies; the Plum Island Animal Disease Center, providing animal 
disease characterization and identification; and the Transportation 
Security Laboratory, providing advancement in explosive and contraband 
detection. Each of these laboratories provides critical support to S&T, 
to other DHS components, and to the Homeland Security Enterprise.
    Many of S&T's research contracts include or are based on work done 
with the Nation's best research universities. S&T also strategically 
uses the DHS University Centers of Excellence (COEs) and their partner 
networks in two ways. First, COEs conduct a wide range of R&D for S&T 
in support of DHS mission priorities that have been articulated through 
extensive partnerships with components. Second, through COEs, S&T 
provides DHS components and other Federal agencies with direct access 
to our universities' laboratories, expertise, and analytical 
capabilities to conduct their own short- and long-term R&D. Their use 
of the Centers is facilitated through streamlined contract and 
financial assistance mechanisms in ten targeted research areas. The 
COEs' successful research results, as well as S&T processes that allow 
easy access to COEs, have attracted more than $96 million in additional 
funding from DHS components and offices and other Federal agencies 
since 2007. Each COE works with S&T, other Federal agencies, and end-
users to address user-identified challenges including resilience, law 
enforcement, hurricanes, biodefense, risk assessment, terrorism, and 
data analytics. More than 150 individual customers in offices across 
DHS have relied on the Centers to address complex and persistent 
challenges, deliver technical solutions, and build a highly specialized 
workforce.
    Question 2e. How can S&T ensure that it is aware of all of the R&D 
activities occurring within the Department?
    Answer. The establishment of an R&D definition was an important 
first step. Moving forward, S&T will draft a directive and instruction 
for formal coordination of R&D in the Department. This is still a work 
in progress, but potential ideas include an annually updated overview 
of R&D within the Department, cross-Department R&D strategic 
information sharing similar to the Department of Defense, and formal 
establishment of a two-way embed program between S&T and operational 
elements. As this plan crystallizes further within DHS, we look forward 
to sharing it with you and your fellow committee Members and staff.
    Question 3a. According to CRS the Homeland Security Advanced 
Research Projects Agency (HSARPA) with in S&T was originally developed 
to be modeled after the DOD R&D agency DARPA.
    Is this the proper model for HSPARA and should the two even be 
compared given the dramatic differences in the scope, scale, and budget 
of each organization?
    Question 3b. How should HSARPA be designed and set up to fit the 
needs and scale of DHS?
    Answer. No, DARPA would not be an appropriate model for DHS's R&D 
organization. Despite original authorizing language modeling HSARPA as 
a DARPA-like R&D provider for DHS, several meaningful differences 
between HSARPA and DARPA have emerged as the Department and S&T have 
matured. In fiscal year 2014, DARPA was appropriated nearly $3 billion 
compared to approximately $417 million for HSARPA. Unlike DARPA, HSARPA 
is not backed by an industrial base equivalently resourced and capable 
to the Defense Industrial Base. HSARPA also serves customer bases that, 
unlike warfighters, operate at a much lower cost point and typically do 
not have as much time available to train and integrate new technology 
into their operations.
    Perhaps most significantly, the role that S&T and HSARPA have grown 
into within the Department is much less specialized than DARPA's role 
within DOD. At DOD, R&D is a multi-faceted construct with different 
organizations specialized to different stages of the process to nurture 
technology to operational use. DARPA was originally chartered to 
``prevent technological surprise''. As a result, while DARPA focuses 
nearly exclusively on providing basic through applied research, S&T and 
HSARPA are responsible for the full life cycle of technology 
development and transition for not only the DHS operational components 
but also the Homeland Security Enterprise as a whole. With about a 
tenth of DARPA's discretionary budget (DARPA does not manage labs or 
Centers of Excellence), S&T has a much broader mission. Additional 
roles filled by S&T include understanding the mission and operational 
need (in DOD, the role of a branch-specific organization like the 
Office of Naval Research) and development of business requirements, 
operational application, and transition (in DOD, the role of a 
branch's-specific organization like the Naval Sea Systems Command).
    HSARPA does not require drastic changes or new authorities to 
fulfill its mission. The Under Secretary for Science and Technology has 
sufficient latitude and authority to shape HSARPA to meet the needs of 
both the Department and the wider Homeland Security Enterprise. We 
recognize the critical differences between DARPA, HSARPA, and their 
roles in their respective Departments and have adjusted how we conduct 
ourselves accordingly.
    For example, to meet the needs of our customers, our R&D portfolio 
is generally much more geared toward near- and medium-term operational 
application than DARPA. In addition, since operational partners also 
rely on S&T for potential leap-ahead technology, we also ensure that 
our portfolio still invests in projects with higher risk but 
correspondingly higher reward. Examples will include S&T's expanded 
Apex projects, which will be high-value, 5-year horizon projects 
focused on a DHS component's unique mission and capability needs. 
Recently-finalized visionary goals will help orient S&T and inspire 
stakeholders, including operators, end-users, and performers in 
industry and academia, toward the types of revolutionary capabilities 
that the Directorate will focus on. In order to work meaningfully 
toward these types of 30-year-horizon North Stars, we are also 
expanding our Apex programs and focusing on alignment of all of S&T's 
capabilities in support of those programs. Taken altogether, these are 
examples of how S&T and HSARPA, despite being different from DARPA, are 
aligned to meet the needs of the Department and the Homeland Security 
Enterprise.
    Question 4. Given GAO's concerns that DHS does not know how much it 
invests in R&D, can S&T produce a reliable list of R&D projects and 
associated costs occurring throughout the Department? If so, please 
include that list in this response. If not, why not?
    Answer. In fiscal year 2014, the Department's budget included 
approximately $1.032 billion for R&D including $932 million at S&T 
(including $433 million related to laboratory infrastructure 
investments such as construction of the National Bio and Agro-Defense 
Facility) and approximately $100 million more at Coast Guard's Research 
and Development Center and in the Domestic Nuclear Detection Office 
research budget. In addition, S&T's Research, Development, Acquisition, 
and Operations budget included $115 million for laboratory operations, 
$42 million for acquisition and operations analysis, and $3 million for 
Minority Serving Institutions.
    Under the DHS-specific definition of R&D signed by the Secretary as 
an annex to S&T's delegation, there are several additional areas of 
later-stage development rightfully under the purview of operational 
components including, among others, validation and demonstration; 
improving on research prototypes; integration into systems and 
subsystems; addressing manufacturing, producibility, and sustainability 
needs; and independent operational test and evaluation.
    The next step will be using this definition to develop a more 
complete picture of the Department's R&D that includes on-going late-
stage development efforts by components. In fiscal year 2015, S&T is 
helping write a Directive and Instruction, developed in partnership 
with components, for more information sharing and tighter collaboration 
between S&T and operational elements of DHS. S&T looks forward to 
sharing this information with Congress when results have been 
finalized.
    Question 5. Does DHS S&T utilize relevant research from the 
National Science Foundation, for instance research conducted related to 
cybersecurity or behavioral research? If so, can you provide me with a 
list of specific examples of NSF-sponsored work DHS S&T has utilized?
    Answer. Yes, S&T works with the National Science Foundation (NSF) 
in behavioral, biological, and cybersecurity research areas. In August 
2010, the S&T Actionable Indicators and Countermeasures project entered 
an interagency agreement with NSF to conduct research focused on the 
U.S. public's attitudes toward terrorism and counterterrorism 
activities. S&T provided NSF with funding to support several surveys on 
this topic as part of the Time-Sharing Experiments for Social Sciences 
project, leveraging an existing NSF-sponsored research infrastructure 
to produce findings in the most cost-effective manner possible.
    S&T is an affiliate in the NSF Center for Identity Technology 
Research (CITeR), a NSF Industry/University Cooperative Research Center 
(I/UCRC) that DHS has contributed to for the last 11 years. More than 
250 university research projects have been jointly conducted through 
CITeR jointly, including these examples:
  <bullet> Cross-Device and Cross-Distance Matching Face Recognition 
        Using Cell Phones with Enhanced Camera Capabilities (University 
        at Buffalo)
  <bullet> Fingerprint Identification: A Longitudinal Study (Michigan 
        State University)
  <bullet> Fusing Biometric and Biographic Information in 
        Identification Systems (Michigan State and West Virginia 
        Universities)
  <bullet> Touch DNA: Fusing Latent Fingerprint with DNA for Suspect 
        Identification (West Virginia University)
    S&T's Cyber Security Division has several active efforts with NSF. 
First, the Transition to Practice (TTP) program identifies mature 
cybersecurity technologies developed with Government funding and then 
funds test and evaluation and operational pilots for these technologies 
to speed their path to operational use and/or commercialization. 
Through TTP technology foraging with NSF, two NSF-funded cybersecurity 
technologies, AMICO and ZeroPoint, have been brought into the portfolio 
for potential pilot and transition to wider operational use. Second, 
S&T and NSF will jointly fund three Cyber Physical Systems-related 
research efforts with NSF--two focusing on the smart grid and a third 
focusing on smart manufacturing. Finally, S&T funds software assurance 
research projects through the Security and Software Engineering 
Research Center (S2ERC), another NSF I/UCRC with projects including a 
software quality assurance tool study to help identify gaps in current 
software quality assurance tools and a technology to identify 
architecturally significant code in systems and applications that could 
lead to potential vulnerabilities.
    In fiscal year 2007, DHS and NSF initiated joint funding for the 
National Institute for Mathematical and Biological Synthesis (NIMBioS), 
to promote the development of cross-disciplinary approaches and new 
collaborations in mathematical biology, including infectious disease 
dynamics. While the focus of NIMBioS is much broader than foreign 
animal disease threats, or even infectious disease dynamics, many of 
the new innovations that arise as a result of the Institute's 
activities will be widely applicable in these areas. The Institute 
sponsors a range of activities at the interface of mathematics and 
biology, including research and education, collaborations with other 
relevant scientific disciplines (e.g., computer science, ecology), 
human resource development (e.g., science fairs for children and 
parents), and questions concerned with public policy (e.g., animal 
depopulation as a strategy for control of animal diseases). 
Furthermore, NIMBioS engages a range of participants. While the 
majority are academics (college or university faculty or staff, 
graduate students, or undergraduates), a number of participants are 
from Government, private sector, or non-profits. DHS's last year of 
funding for NIMBioS was fiscal year 2012 (to refocus on more tool-
oriented modeling approaches), but NSF independently renewed the 
Institute's funding for another 5-year term. S&T continues to 
participate in reviews of the programs, and our programs continue to 
benefit from the results of these investments.
      Questions From Chairman Lamar S. Smith for Reginald Brothers
    Question 1. Who are the entities/stakeholders responsible for 
securing the border? How do they determine whether solutions require 
technology, people, training, and/or policy and procedures?
    Question 2. What activities is the S&T Directorate currently 
undertaking to improve border security?
    Answer. Securing the land, maritime, and air borders is a 
collaborative effort among S&T, DNDO, and the operating components of 
DHS, including the United States Customs and Border Protection (CBP), 
U.S. Immigration and Customs Enforcement, Transportation Security 
Administration (TSA), and the United States Coast Guard (USCG). S&T is 
the primary research and development arm for DHS and manages research, 
from development through transition, for the Department's operational 
components, with DNDO having the equivalent responsibility for nuclear 
and radiological detection and forensics. S&T works with the DHS 
operational components to identify capability gaps and to determine if 
people, training, readily available commercial technologies, policy/
procedures, or new technology is needed to fulfill the requirement. S&T 
will typically perform market research or technology foraging to 
discover, adapt, and/or leverage technology solutions developed by 
other Governmental and private-sector entities to address the gap. If 
there are no existing solutions, S&T will seek to develop a new 
solution through Federal and private partnerships and collaborations, 
or on its own to fulfill the gap.
    S&T's Borders and Maritime Security Division, in its pursuit of 
technology to enhance border security, categorizes its efforts as 
follows: (1) Land Border Security (between the Ports of Entry (POEs)), 
(2) Maritime Border Security, and (3) Cargo Security (at the POEs). The 
activities being undertaken in each category are discussed below.
                land border security (between the poes)
    In support of CBP's Offices of Border Patrol and Air and Marine 
(OAM), S&T is pursuing technology solutions in the following areas:
    Improved Utilization of Air Platform-Based Technologies.--
Identifying, testing, and evaluating air-based technologies to improve 
CBP's ability to detect, classify, and track illicit activity. The use 
of sensors on fixed and rotary wing, manned and unmanned aircraft will 
provide improved situational awareness that will in turn improve 
decision making at both the local and regional level.
    Improved Ground-Based Technologies.--Developing technology to fill 
capability gaps on both Northern and Southern Borders identified by the 
Border Surveillance Working Group (made up of Border Patrol personnel 
and other subject-matter experts). This includes work developing and 
piloting border tripwires, unattended ground sensors, camera poles, 
upgrades to mobile surveillance units, etc. These efforts will allow 
for improved situational awareness of the U.S. terrestrial borders 
resulting in higher interdiction rates and better utilization of Border 
Patrol Agents and assets.
    Rapid Prototyping.--Rapidly assessing and deploying commercial-off-
the-shelf (COTS) or near-COTS solutions in response to critical border 
security needs identified by CBP. The project will result in rapid 
adoption of technology, improving CBP's capabilities and/or reduce 
operations and maintenance costs.
    Improved Tunnel Detection and Tunnel Forensics.--Developing 
technologies to detect and locate clandestine tunnels used to smuggle 
drugs and contraband into the United States along the Southern Border. 
This also includes developing tools to obtain forensic evidence from 
discovered tunnels to support investigations and increase arrests and 
prosecutions. Efforts will result in an increase in the number of 
tunnels detected and will reduce the flow of contraband smuggled into 
the United States.
    Improved Border Situational Awareness (Apex Project).--Improving 
border situational awareness along the Southwestern U.S. Border by: (1) 
Integrating existing sensor and non-sensor data, (2) providing decision 
support tools that will translate data into actionable information, and 
(3) enabling data and information sharing across the Homeland Security 
Enterprise (Federal, State, local, Tribal, and international). This 
integrated border information enterprise will enable effective law 
enforcement response at the local level while allowing risk-based 
resource allocation at the local, sector, and National level. This will 
result in more effective and efficient border security, improving 
interdiction rates, keeping more drugs off of U.S. streets while 
reducing human trafficking and illegal immigration.
                        maritime border security
    In support of CBP's OAM and USCG, S&T is pursuing technology 
solutions in the following areas:
    Improved Arctic Communications Capability.--Identifying and 
evaluating candidate terrestrial and space-based solutions to inform 
the acquisition and implementation of reliable communications in the 
Arctic. Reliable communications are essential for safe and effective 
operations as the Coast Guard extends its mission into the Arctic.
    Enhanced Port and Coastal Surveillance.--Developing solutions to 
improve maritime situational awareness, information/data analytics, and 
information sharing, which will enable appropriate and effective 
response to maritime threats. Technical solutions will: (1) Enable 
rapid tactical response resulting in increased interdiction efficiency, 
(2) enable risk-based strategic planning/resource allocation, and (3) 
enhance officer effectiveness, efficiency, and safety.
                      cargo security (at the poes)
    In support of CBP's Office of Field Operations (OFO), S&T is 
pursuing technology solutions in the following areas:
    Improved Cargo Container Security.--Developing technologies for 
collecting additional cargo security data, while also investing in 
analysis methods for transforming new and existing cargo security data 
into actionable information in the form of improved targeting that will 
lead to a higher probability of detecting illegal or hazardous 
materials in cargo while expediting the delivery of legitimate cargo. 
The impact will be a reduction of the number of containers requiring 
scanning and/or manual inspection saving CBP millions annually in labor 
and facility costs while increasing the throughput of legitimate cargo.
    Enhanced Cargo Validation Capability.--Providing CBP with the 
capability to detect the transport of contraband, counterfeit 
merchandise, or invasive species in in-bound and out-bound cargo at the 
POEs and detect and prosecute illegal activity through the forensic 
analysis of material collected from suspicious cargo/packages. The 
result will be an increase in throughput of legitimate cargo, an 
increase in the availability of forensic evidence enabling enhanced 
trade compliance enforcement, and a reduction in the cost to industry 
caused by delays at the POE.
    Improved Cargo Scanning Capability.--Developing software and 
hardware upgrades for legacy cargo scanning units and infusing state-
of-the-art technology to enhance their detection performance and extend 
their service life. S&T is also developing/prototyping tools to non-
intrusively scan structural voids for hidden contraband in automobiles 
and other cargo conveyances. The technology will enhance CBP's 
effectiveness in detecting contraband at POEs while increasing the 
throughput of legitimate cargo. S&T is also working with the Domestic 
Nuclear Detection Office to develop and test new technology that fuses 
nuclear detection with the detection of other contraband.
    Should Members of the committee be interested in further 
information about any of the above programs, S&T would be happy to 
provide more detailed briefings.
   Question From Ranking Member Daniel Lipinski for Reginald Brothers
    Question. In your opening statement you said, ``With S&T's 
reauthorization, the committee has an opportunity to help launch a 21st 
Century research and development (R&D) organization that will serve as 
a model for Federal R&D.'' In the context of reauthorizing S&T, what 
would be your legislative recommendations to the committees that would 
put you in a better position to launch a 21st Century R&D organization? 
What are the top five high-priority items you would you like to see in 
the reauthorization?
    Answer. Empowering an R&D organization for the 21st Century means 
providing organizational flexibility to empower a technical workforce 
capable of more open and effective engagement with the full breadth of 
industry and other non-Government stakeholders. Many of the mechanisms 
and constraints that S&T and other Federal R&D organizations operate 
under are the result of authorities suited to a different era with less 
competition for technical expertise and less emphasis on organizational 
agility and responsiveness to rapid change.
    The homeland security mission space encompasses numerous complex 
threats that evolve quickly and consistently strain operational 
resources. Our partners rely on S&T to identify and exploit technology-
based opportunities to jump the threat curve and gain an advantage. 
S&T, as the R&D organization supporting these operators, would achieve 
its mission more effectively if it were given greater flexibility and 
empowerment in re-authorization. Examples of revised or new authorities 
include permanent Other Transaction Authority for S&T, which would 
allow more strategic use by avoiding prolonged lapses in the authority, 
and moving AD 1101 hiring authority out of the Homeland Security 
Advanced Research Projects Agency to the Under Secretary for Science 
and Technology level, which would grant hiring flexibility to meet 
technical needs throughout the directorate.
    Moving forward, endorsement by the committee of S&T's approach 
would also help us maintain and expand upon progress made to date. That 
includes our planned implementation of a robust process for S&T's 
workforce to embed with operators and to allow operational staff to 
detail to S&T and provide direct input to our R&D projects. That also 
includes our modified approach to the R&D portfolio, which includes 
expansion of our Apexes and establishment of cross-cutting Engines that 
support R&D work throughout S&T.
      Questions From Honorable Chris Collins for Reginald Brothers
    Question 1. What different types of technologies are being pursued 
by DHS for detection of infectious diseases?
    Question 2. How is DHS ensuring the technologies they are 
developing do not overlap with those of DoD when it comes to infectious 
diseases (i.e. anthrax and other airborne toxins)?
    Answer. S&T has several projects focused on improvements for 
detection and identification of infectious diseases. These range from 
laboratory assays to fieldable devices to data analytics for rapid 
situational awareness.
    S&T is working collaboratively with an interagency group that 
includes DoD to develop, test, evaluate, and validate highly specific 
and sensitive laboratory assays for the rapid detection of disease 
agents. These assays are intended for both clinical diagnostic use as 
well as environmental sample analysis, and will be deployed and 
employed through the more than 150 CDC Laboratory Response Network 
laboratories across the Nation for comprehensive coverage and rapid 
response to a biological incident.
    During a biological event, one potential problem will be pathogens 
with resistance or immunity to existing medical countermeasures. 
Overuse and inappropriate use of medical countermeasures in the United 
States and internationally (i.e., use of antibacterial countermeasures 
for viral infections) have resulted in many bacterial pathogens with 
resistances that threaten the efficacy and utility of antibiotics. As a 
result, the White House recently initiated a program called ``Combating 
Antimicrobial Resistant Bacteria.'' S&T is supporting technology that 
will rapidly determine whether infections are bacterial versus viral 
and help medical professionals decide when antibiotics should be 
prescribed. This will ultimately lead to prudent use of life-saving 
medical countermeasures that will prolong their life span and utility 
to the Nation and medical community in the case of a biological event.
    Effective response to emerging infectious disease will also require 
information sharing between local hospitals, State public health 
departments, and Federal agencies. S&T is undertaking efforts to 
evaluate information communication systems and data analytic techniques 
that will facilitate rapid awareness of a disease emergence for 
effective public safety communication and response.
    In all of these programs, S&T engages key Federal partners, 
including multiple organizations within DoD, to participate in 
capability gap generation processes and program execution to ensure 
that there is no duplication of effort. There are jointly funded DHS-
DoD projects, technical exchanges around biosurveillance and 
biodetection activities, and a Memorandum of Understanding that 
establishes a formal information-sharing mechanisms between S&T and DoD 
Office of the Secretary of Defense.
       Question From Chairman Lamar S. Smith for David C. Maurer
    Question. Who are the entities/stakeholders responsible for 
securing the border? How do they determine whether solutions require 
technology, people, training, and/or policy and procedures?
    Answer. Securing U.S. borders is the responsibility of the 
Department of Homeland Security (DHS), in collaboration with other 
Federal, State, local, and Tribal entities. U.S. Customs and Border 
Protection (CBP), a component within DHS that is the lead agency for 
border security, is responsible, among other things, for preventing 
terrorists and their weapons of terrorism from entering the United 
States and for interdicting persons and contraband crossing the border 
illegally. Within CBP, the Office of Field Operations (OFO) is 
responsible for securing the border at ports of entry (POE)\1\ and the 
U.S. Border Patrol (Border Patrol) is the CBP component charged with 
ensuring security along border areas between the POEs. Additionally, 
CBP's Office of Air and Marine (OAM) provides air and maritime support 
to secure the National border between the POEs, within maritime 
operating areas, and within the Nation's interior. The U.S. Coast Guard 
executes its maritime security mission on and over the major waterways, 
including the Great Lakes, using marine and air assets.
---------------------------------------------------------------------------
    \1\ Ports of entry are officially designated places that provide 
for the arrival at or departure from the United States.
---------------------------------------------------------------------------
    DHS and CBP and its components coordinate their border security 
efforts with various Federal, State, local, Tribal, and foreign law 
enforcement agencies that also have responsibilities to detect, 
interdict, and investigate different types of illegal activity within 
certain geographic boundaries. For example, U.S. Department of 
Agriculture (USDA) and Department of Interior (DOI) agencies have 
jurisdiction for law enforcement on Federal borderlands including 
nearly 2,000 miles of Federally-owned or -managed land adjacent to the 
international borders with Canada and Mexico administered by their 
component agencies. These component agencies--including DOI's National 
Park Service, Fish and Wildlife Service, and Bureau of Land Management 
and USDA's Forest Service--are responsible for the protection of 
natural and cultural resources, agency personnel, and the public on the 
lands they administer. In addition, DOI's Bureau of Indian Affairs may 
enforce Federal laws on Indian lands with the consent of Tribes and in 
accordance with Tribal laws, and law enforcement personnel from 
sovereign Indian nations located on the international borders also 
conduct law enforcement operations related to border security. 
International partners in securing the U.S. border include Canadian and 
Mexican law enforcement agencies.
    In addition, there are other Federal, State, and local partners in 
securing the U.S. border. These partners include DHS's U.S. Immigration 
and Customs Enforcement (ICE) which is responsible for investigating 
the source of cross-border crimes and dismantling illegal operations. 
Partners at the Department of Justice (DOJ) include the Drug 
Enforcement Administration (DEA), which conducts investigations of 
priority drug-trafficking organizations, domestic and foreign, that can 
include drug smuggling across the border or ports of entry and the 
Federal Bureau of Investigation (FBI), which has responsibility for 
combating terrorism. The Department of Defense (DOD), while not a 
partner, also provides support as requested, such as personnel and 
technology for temporary joint operations. Moreover, numerous State and 
local law enforcement entities interdict and investigate criminal 
activity on public and private lands adjacent to the border. Although 
these agencies are not responsible for preventing the illegal entry of 
aliens into the United States, they do employ law enforcement officers 
and investigators to protect the public and natural resources on their 
lands.
    We have reported on CBP's processes for identifying border security 
resource needs, specifically related to Border Patrol resources for 
securing the Southwest Border between ports of entry, deployments of 
air and marine resources by CBP's OAM, and technology deployment along 
the Southwest Border. With regard to Border Patrol resource needs, in 
December 2012 we reported on the extent to which Border Patrol 
developed mechanisms to identify resources needed to secure the border 
under its new strategic plan, issued in May 2012.\2\ We reported that 
as the Border Patrol began transitioning to its new strategic plan, it 
has been using an interim process for assessing the need for additional 
personnel, infrastructure, and technology in agency sectors. Border 
Patrol officials told us that under the risk management approach called 
for in the Border Patrol's fiscal year 2012-2016 strategic plan, the 
need for additional resources would be determined in terms of 
unacceptable levels of risk caused by illegal activity across border 
locations. Until a new process for identifying resource needs has been 
developed, we reported that Border Patrol sectors would continue to use 
annual operational assessments to reflect specific objectives and 
measures for accomplishing annual sector priorities, as well as 
identifying minimum budgetary requirements necessary to maintain the 
current status of border security in each sector. We recommended, among 
other things, that CBP establish milestones and time frames for 
developing performance measures for assessing progress made in securing 
the border and for informing resource identification and allocation 
efforts. DHS concurred with our recommendation and is working to 
establish such milestones and time frames.
---------------------------------------------------------------------------
    \2\ GAO, Border Patrol: Key Elements of New Strategic Plan Not Yet 
in Place to Inform Border Security Status and Resource Needs, GAO-13-25 
(Washington, DC: Dec. 10, 2012).
---------------------------------------------------------------------------
    In addition to assessing Border Patrol's processes for identifying 
resource needs, we have reported on identification and allocation of 
resources for CBP's Office of Air and Marine. The Office of Air and 
Marine provides aircraft, vessels, and crew at the request of its 
customers, primarily Border Patrol. In March 2012, we reported that the 
Office of Air and Marine had not documented significant events, such as 
its analyses to support its asset mix and placement across locations, 
and as a result, lacked a record to help demonstrate that its decisions 
to allocate resources were the most effective ones in fulfilling 
customer needs and addressing threats.\3\ The Office of Air and Marine 
issued various plans that included strategic goals, mission 
responsibilities, and threat information. However, we were unable to 
identify the underlying analyses used to link these factors to the mix 
and placement of resources across locations because the Office of Air 
and Marine did not have documentation that clearly linked the 
deployment decisions in the plan to mission needs or threats. 
Similarly, we found that the Office did not document analyses 
supporting the current mix and placement of marine assets across 
locations. Office of Air and Marine headquarters officials stated that 
they made deployment decisions during formal discussions and on-going 
meetings in close collaboration with Border Patrol, and considered a 
range of factors such as operational capability, mission priorities, 
and threats. Officials said that while they generally documented final 
decisions affecting the mix and placement of resources, they did not 
have the resources to document assessments and analyses to support 
these decisions. However, we reported that such documentation of 
significant events could help the Office improve the transparency of 
its resource allocation decisions to help demonstrate the effectiveness 
of these resource decisions in fulfilling its mission needs and 
addressing threats. We recommended that CBP document analyses, 
including mission requirements and threats that support decisions on 
the mix and placement of the Office's air and marine resources. DHS 
concurred with our recommendation and stated that it plans to provide 
additional documentation of its analyses supporting decisions on the 
mix and placement of air and marine resources.
---------------------------------------------------------------------------
    \3\ GAO, Border Security: Opportunities Exist to Ensure More 
Effective Use of DHS's Air and Marine Assets, GAO-12-518 (Washington, 
DC: Mar. 30, 2012).
---------------------------------------------------------------------------
    CBP also has a planning process for acquiring and deploying 
surveillance technologies along the Southwest Border. For example, In 
November 2011, we reported on CBP's plan to identify, acquire, and 
deploy surveillance technologies along the Arizona border.\4\ This 
plan, referred to as the Arizona Border Surveillance Technology Plan, 
is the first step in DHS's approach for acquiring and deploying border 
security technologies, such as surveillance systems, hand-held 
equipment, and unattended ground sensors, along the Southwest Border.
---------------------------------------------------------------------------
    \4\ GAO, Arizona Border Surveillance Technology: More Information 
on Plans and Costs Is Needed before Proceeding, GAO-12-22 (Washington, 
DC: Nov. 4, 2011).
---------------------------------------------------------------------------
    We reported that CBP used a two-step process to develop the Arizona 
Border Surveillance Technology Plan. First, CBP engaged the Homeland 
Security Studies and Analysis Institute to conduct an analysis of 
alternatives beginning with Arizona.\5\ This analysis of alternatives 
considered four technology alternatives: (1) Agent-centric hand-held 
devices, (2) integrated fixed-tower systems, (3) mobile surveillance 
equipment, and (4) unmanned aerial vehicles. In its analysis of 
alternatives, the Homeland Security Studies and Analysis Institute 
noted that its analysis did not, among other things, identify the 
optimal combination of specific equipment and systems, measure the 
contribution of situational awareness to achieving control of the 
border, or quantify the number of apprehensions that may result from 
the deployment of any technology solution. According to officials from 
the Homeland Security Studies and Analysis Institute, the Institute 
assembled an independent review team composed of senior subject-matter 
experts with expertise in border security, operational testing, 
acquisition, performance measurement, and the management and execution 
of analyses of alternatives to evaluate the analysis of alternatives 
for Arizona. In the results of the final report, the review team from 
the Homeland Security Studies and Analysis Institute concluded that the 
analysis of alternatives for Arizona appeared to have successfully 
answered the questions asked and drew appropriate conclusions and 
insights that should be useful to DHS and CBP.
---------------------------------------------------------------------------
    \5\ The Homeland Security Studies and Analysis Institute is a 
Federally-funded research and development center to provide independent 
analysis of homeland security issues.
---------------------------------------------------------------------------
    Second, we reported that following the completion of the analysis 
of alternatives, the Border Patrol conducted its operational 
assessment, which included a comparison of alternative border 
surveillance technologies and an analysis of operational judgments to 
consider both effectiveness and cost. According to CBP officials, they 
started with the results of the analysis of alternatives for Arizona, 
noting that the analysis considered the technologies in terms of the 
trade-offs between capability and cost--but did not document the 
quantities of each technology needed, the appropriate mix of the 
technologies, or how a proposed mix of technologies would be applied to 
specific border areas. CBP officials stated that a team of Border 
Patrol Agents familiar with the Arizona terrain determined the 
appropriate quantity and mix of technologies by considering the terrain 
in each area under consideration and which mix of technologies appeared 
to work for that area and terrain.
    We found that while the first step in CBP's process to develop the 
Arizona Border Surveillance Technology Plan--the analysis of 
alternatives--was well documented, the second step--Border Patrol's 
operational assessment--was not transparent because of the lack of 
documentation. Specifically, CBP did not document its analysis 
justifying the specific types, quantities, and deployment locations of 
border surveillance technologies CBP proposed in its plan. We 
recommended that CBP ensure that the underlying analyses of the plan 
are documented. While DHS concurred with our recommendation, officials 
noted that CBP was not planning further analyses or additional 
documentation given that they consider their analyses to be 
sufficiently documented in the final plan. Given that CBP has moved 
forward in awarding contracts for the Plan's technology programs and 
does not plan to conduct further analyses, we closed this 
recommendation as not implemented. In addition, DHS noted that it 
relies on Border Patrol field agents' expert judgment to select the 
type and quantities of technologies best suited for their respective 
geographic areas of responsibilities, and that technology selections 
were verified for consistency with the major findings of the analysis 
of alternatives.

                                 [all]
</pre></body></html>
